<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                        WEDNESDAY, APRIL 5, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:35 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

                              U.S. SENATE

                    Sergeant at Arms and Doorkeeper

STATEMENT OF WILLIAM H. PICKLE, SERGEANT AT ARMS AND 
            DOORKEEPER

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order. This 
morning, we meet to take testimony on the fiscal year 2007 
budget requests for the Sergeant at Arms and Doorkeeper of the 
Senate, U.S. Capitol Police, and the Capitol Guide Service and 
Special Services Office.
    We welcome our witnesses this morning. First, we will hear 
from the Sergeant at Arms and Doorkeeper of the Senate, Mr. 
William Pickle. Good morning, Mr. Pickle.
    Mr. Pickle. Good Morning, Mr. Chairman.
    Senator Allard. The Sergeant at Arms' budget request total 
is $224 million, an increase of about $25 million or 12 percent 
over the current year. The budget would fund an additional 34 
employees as well as implement additional security initiatives. 
Funding is also included to continue the telephone replacement 
project.
    Following the Sergeant at Arms, we will hear from the 
Capitol Police Board, currently chaired by House Sergeant at 
Arms Bill Livingood. Good morning, Bill.
    The Board is requesting $295 million for the Capitol 
Police, an increase of $48 million or almost 20 percent over 
the current year. The request includes 101 additional sworn 
officers and seven additional administrative employees, which 
would bring the department staffing to a total of 2,180 
employees.
    The budget includes $28 million for overtime, about $8 
million more than the police department anticipates will be 
needed this year, and we have some concerns about that level.
    Finally, we will again hear from Mr. Livingood, this time 
as chairman of the Capitol Guide Board. Also present is Tom 
Stevens, the head of the Capitol Guide Service and 
Congressional Special Services Office.
    The Board is requesting $8.5 million for the Guide Service. 
This is an increase of $4.6 million over the current budget, 
with the expectation that 71 additional guides and visitor 
services employees will be needed to operate the Capitol 
Visitor Center (CVC) in fiscal year 2007.
    Before we begin this hearing, I would like to say thank you 
to outgoing Chief Terry Gainer. Today is his last day on the 
job, and I appreciate all the good work he has done to improve 
the Capitol Police force and serve the Congress. The department 
is stronger, better trained and equipped, and more capable than 
when Chief Gainer took the helm 2 years ago. I wish him luck in 
his next adventure.
    Before I finish my statements, we have Senator Burns, Mr. 
Pickle, who has some questions that he has asked us to put 
forward. After the hearing, we will submit those questions to 
you with the hope that you can get back with a response within 
10 days. So, if you could respond to those questions at a later 
date after we have finished the hearing, we would appreciate 
that, Mr. Pickle. And so, having made that initial request, Mr. 
Pickle, please go ahead. We look forward to hearing your 
comments.

                     STATEMENT OF WILLIAM H. PICKLE

    Mr. Pickle. Thank you, Mr. Chairman. Thanks again for 
inviting me to testify this morning. As I have said in the last 
2 or 3 years that I have been here and appeared before this 
subcommittee, I am so pleased to represent the hundreds of men 
and women who comprise the Office of the Sergeant at Arms. I 
don't think you are going to find a more dedicated or committed 
group of Federal employees anywhere, and I am sure that you and 
this subcommittee share that belief as well, after witnessing 
the great job they do. Mr. Chairman, I have a much more formal 
statement. You stole a little of my thunder in your opening 
remarks. So, I am going to ask that my formal statement be 
submitted for the record, and I will just talk for a couple of 
minutes, if I may.
    As you indicated, we have asked for about $224 million or 
about a 12.8-percent increase over our 2006 appropriation. 
These funds will continue to allow us to provide the service 
that is so important to the Senate. In particular, the increase 
that is reflected in this budget covers our telecommunications 
modernization project. It also covers 34 positions, as you 
indicated, 17 of which are designated for the CVC. The other 
positions are spread out over our areas of technology and 
security. In addition, we are funding some initiatives in our 
Office of Security and Emergency Preparedness. These 
initiatives haven't been fully covered previously in any 
recurring budget request, and I think probably what we are 
going to see in out-years, too, is continued growth in that 
area. But this year, there is a sizable increase, as you noted, 
in our security and emergency preparedness allocation.
    Mr. Chairman, in my formal statement, I talk about a number 
of challenges that we have met successfully and a number of 
accomplishments that this office, and particularly the staff, 
has achieved. I want to take a minute to introduce the senior 
management team here, because they are outstanding. I am going 
to start with my Deputy Sergeant at Arms, Lynne Halbrooks. The 
Executive Assistant who is the Democratic Leader's 
Representative is Nancy Erickson. Greg Hanson is our Chief 
Information Officer and Assistant Sergeant at Arms. Chuck 
Kaylor is the Assistant Sergeant at Arms for Security and 
Emergency Preparedness. Al Concordia is the Assistant Sergeant 
at Arms for Police Operations and Liaison. Esther Gordon is the 
Assistant Sergeant at Arms for Operations, and Dan Strodel is 
our General Counsel. I also want to acknowledge, and I know he 
is going to be a little embarrassed by this, my Chief Financial 
Officer, Chris Dey. Chris works very closely with Carrie 
Apostolou and Nancy Olkewicz, and Chris is the ultimate 
professional, as Carrie and Nancy can attest to. He keeps us 
straight. He keeps me out of financial problems with this 
subcommittee, and we are just very delighted to have him.
    Senator Allard. I appreciate you introducing your staff and 
having them here this morning.
    I couldn't agree with you more, I think you have got a good 
staff.

                           GUIDING PRINCIPALS

    Mr. Pickle. Thank you very much. I appreciate that. Last 
year, when I testified, I talked about the three guiding 
principals that we follow in doing a better job here at the 
Senate. The first one is to continue to maintain security of 
this complex. Since 9/11, the whole world has changed here. 
Maintaining security is very expensive and very complex, and we 
work closely with the Capitol Police to do the best job we can. 
The second focus is to follow the leadership's mandate to 
provide state-of-the-art technology. I don't think anyone can 
ever have state-of-the-art technology. You know, Moore's Law 
says everything changes every 1\1/2\ years or so. Well, we are 
close to state-of-the-art, and it's only because of this 
subcommittee's support that we have reached the level that we 
have. And finally, it's rather cliche, but customer service 
continues to be a guiding force in the Sergeant at Arms office. 
It is used over and over again, and sometimes it loses its 
meaning. But when you have over 100 business units as we do and 
roughly 950 people working here within the Office of the 
Sergeant at Arms, you have a lot of exposure to a very 
demanding community. I think our people do a great job. I often 
hear about it when we don't. I seldom hear about it when we do. 
But we try, they try, and customer service is still our 
priority.

                             STRATEGIC PLAN

    Mr. Chairman, there is one final thing I want to do. I want 
to talk briefly about our strategic plan. I know how important 
GPRA is to you, and I know how you like to hold each of the 
agencies under you accountable. We have been working on a 
strategic plan for the last 6 to 9 months. It's a very 
comprehensive plan. I think that you will see the seriousness 
with which we view this plan, and I expect to share it with the 
subcommittee very soon. We would welcome any comments from you 
or your staff.
    Senator Allard. Very good. We look forward to that.
    Mr. Pickle. Thank you. Finally, I want to digress for just 
a moment. You mentioned Chief Terry Gainer, and I just want to 
acknowledge, on our part from the Senate side, how much we will 
miss him. Chief Gainer is the ultimate professional. I think he 
is arguably one of the best Chiefs of Police in the country. 
When you talk to people in the law enforcement community, they 
echo those sentiments. We often use the word leadership. 
Leadership is important. And we always say you know leadership 
when you see it. Well, when you see Terry Gainer, you see 
leadership. We may not always agree with him, but he is one of 
the main reasons we have such an outstanding department, such a 
professional department. And I think he will be sorely missed, 
but we wish him bon voyage and Godspeed. Mr. Chairman, that 
concludes my oral remarks, and I'd be happy to take questions.
    [The statement follows:]

         Prepared Statement of the Honorable William H. Pickle

                              INTRODUCTION

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify before you today. I am pleased to report on the 
progress the Office of the Sergeant at Arms (SAA) has made over the 
past year and our plans to enhance our contributions to the Senate in 
the coming year.
    For fiscal year 2007, the Sergeant at Arms respectfully requests a 
total budget of $224,043,000, an increase of $25,343,000 (or 12.8 
percent) over the fiscal year 2006 budget. This request will allow us 
to maintain the improvements and level of service we provide to the 
Senate community. It will also fund 34 new staff members who will 
maintain the Senate's expansion space in the Capitol Visitor Center and 
develop and maintain business and network security applications, among 
other support services. Appendix A, accompanying this testimony, 
elaborates on the specific components of our fiscal year 2007 budget 
request.
    Last year I testified before this Committee and reported on our 
progress in accomplishing three priorities: (1) ensuring the United 
States Senate is as secure and prepared for an emergency as possible; 
(2) providing the Senate outstanding service and support, including the 
enhanced use of technology; and (3) delivering exceptional customer 
service to the Senate. These priorities continue to guide the Office of 
the Sergeant at Arms.
    This year I am pleased to highlight some of this office's 
activities including a new strategic plan we are developing and the 
challenges we have overcome since last year. Our accomplishments in the 
areas of security and preparedness, information technology, and 
operations are also impressive. We are preparing for next year by 
planning for the major events we know will come and by ensuring that 
the Office of the Sergeant at Arms is an agile organization that can 
adjust to the unexpected.
    An outstanding senior management team leads the efforts of the 
dedicated Sergeant at Arms staff. Lynne M. Halbrooks serves as my 
Deputy, and she and I are joined by Administrative Assistant Rick 
Edwards, Executive Assistant Nancy Erickson, General Counsel Dan 
Strodel, Assistant Sergeant at Arms for Security and Emergency 
Preparedness Chuck Kaylor, Assistant Sergeant at Arms for Police 
Operations Albert V. Concordia, Assistant Sergeant at Arms and Chief 
Information Officer J. Greg Hanson, and Assistant Sergeant at Arms for 
Operations Esther L. Gordon. The many accomplishments set forth in this 
testimony would not have been possible without this team's leadership 
and commitment.
    The Office of the Sergeant at Arms also works with other 
organizations that support the Senate. I would like to take this 
opportunity to mention how important their contributions have been in 
helping us achieve our objectives. In particular, we work regularly 
with the Secretary of the Senate, the Architect of the Capitol, the 
Office of the Attending Physician, and the U.S. Capitol Police. When 
appropriate, we coordinate our efforts with the U.S. House of 
Representatives and the agencies of the Executive Branch. I am 
impressed by the people with whom we work, and pleased with the quality 
of the relationships we have built together.
    This is my third year testifying before this Committee and I would 
be remiss if I did not mention how proud I continue to be of the men 
and women with whom I work. The employees of the Office of the Sergeant 
at Arms are some of the most committed and creative in government. We 
have made huge strides as an organization these past three years.
    None of our efforts would be accomplished, though, without the 
guidance of this Committee and the Committee on Rules and 
Administration. Thank you for the support you consistently demonstrate 
as we work to serve the Senate.

Strategic Plan
    The Office of the Sergeant at Arms is developing a comprehensive 
strategic plan and performance goals for services we provide. The plan 
will establish the level of performance that the Senate expects from 
us, and will help us build on our strengths and address weaknesses.
    During my tenure with the Senate, I have seen how Sergeant at Arms 
staff works to continuously improve the level of service it delivers to 
this institution. Our strategic plan acknowledges this dedication and 
skill, and provides guidance on how to focus these efforts. The plan 
documents the mission, vision, values, and principles of this office, 
so our employees, our customers, and Senate Leadership will know what 
our objectives are and how we plan to achieve them.
    We already deliver outstanding service to the Senate, and this 
strategic plan will help us continue to do so. I look forward to 
presenting this Committee with the strategic plan later this year. It 
was developed with the input of all levels of management, and, I 
believe, accurately lays a clear roadmap for the future of this 
organization.

Customer Service and Support
    One priority of the strategic plan is to promote within the Office 
of the Sergeant at Arms a culture that is focused on excellence in 
customer service. Every aspect of our work at the Senate focuses on 
serving the Senators, staff members, and the public. Our efforts in the 
areas of security, information technology, and operations all focus on 
providing services that the Senate needs to function properly. Our 
customers usually are Senate staff, but they also include anyone who 
contacts the Senate and members of the media who report about the 
institution. As a measure of our overall focus on customer service, 
almost one-quarter of the staff of this office provides direct customer 
support: Capitol Operators; Appointments Desk staff; Media Gallery 
staff; customer support analysts; telecommunications representatives; 
dedicated customer support personnel in our print shop, Recording 
Studio, and Photography Studio; and Help Desk contractors.

Major Challenges of the Past Year
    As is true every year, this past year has offered several 
challenges to the Office of the Sergeant at Arms. Besides frequent 
suspicious item alerts, the Senate had air space incursion alerts and 
the recent Russell Senate Office Building evacuation. The Judiciary 
Committee held confirmation hearings for John G. Roberts in mid-
September 2005 and for Samuel A. Alito in early January 2006. In August 
2005, Hurricane Katrina devastated Louisiana, Mississippi, and Alabama, 
and affected the ability of several Senate state offices to serve their 
constituents. These events highlight how effectively this office, in 
conjunction with the Senate support organizations and Legislative 
Branch agencies with which we work, has adopted procedures that enable 
us to rise to these challenges.
    Building Evacuations.--On May 11, 2005, the Capitol Police 
evacuated the Capitol and Senate and House Office Buildings due to an 
incoming aircraft. The actions of the police were exemplary, and the 
Members, staff, and visitors cooperated fully during the evacuation. 
When the next air space intrusion happened about one month later, we 
were even more prepared and an assembly area for Senators was 
activated.
    On February 8, 2006, a hazardous material alarm sounded in the 
Russell Building. The alarm indicated the presence of a substance that 
was potentially hazardous, and people in the Russell Building were 
directed by the Capitol Police to move to the Legislative Garage. 
Senators and staff moved to the garage, where they sheltered in place 
for about three hours.
    Immediately staff from the Sergeant at Arms and other Senate 
offices prepared to open a Senate Emergency Operations Center and 
started implementing their emergency plans. As an example, our contract 
IT Help Desk staff that was evacuated to the garage ensured the 
continuity of Help Desk operations by shifting the function to 
technicians located off-site. All of these activities follow the 
established protocols for this kind of emergency.
    The atmosphere in the Russell Building and the Legislative Garage 
was marked by a distinct sense of calm and control that lasted from the 
start of the incident through its completion. Fortunately, the 
investigation found no hazardous material, and Senators and staff left 
safely.
    This event demonstrated how the Capitol Police, as well as the 
Sergeant at Arms Offices of Police Operations and Security and 
Emergency Preparedness have made progress over the past few years in 
establishing a controlled, efficient response to incidents at the 
Senate. The coordinated and measured response met the Senate's needs 
for information and for security.
    Hurricane Katrina.--Even before Hurricane Katrina hit on August 29, 
2005, Sergeant at Arms staff was working to ensure affected state 
offices would be able to recover quickly. After the hurricane, some 
members of our staff assisted from Washington, D.C., while others went 
to the area to help with the recovery and with the family assistance 
center.
    A wide range of SAA staff participated in the state offices' 
recovery. Our State Office Liaison was the first point of contact for 
the offices, ensuring that they knew how to contact us and others who 
could help. CIO staff members also played pivotal roles. Before the 
hurricane, they inventoried equipment in the threatened offices and 
readied replacement equipment. They also made sure that telephone calls 
to the state offices would be forwarded to another location if the 
staff evacuated.
    The first priority of the staff in the Louisiana, Mississippi, and 
Alabama offices was their safety and the safety of their families. 
Within days, though, they got back to work, connecting constituents 
with the services they needed. To do this, they needed access to space, 
computers, telephones, and power.
    SAA staff supplied the equipment and facilities that offices 
needed. Our State Office Liaison worked with the General Services 
Administration to find facilities that staff could use while their 
offices were unavailable. The CIO's team improvised ways to transport 
equipment to the area; they sent equipment to the closest place with 
delivery service and determined the next steps from there. In one case, 
they even sent satellite telephones to the area with another elected 
official. Additionally, the CIO's staff monitored the status of the 
circuits and networks, configured and shipped equipment to each 
affected site, installed LAN drops, and provided dial-up modems and 
frame relay circuits. One staff member spent a month in Mississippi 
supporting the Capitol Police mobile radio system.
    Across the SAA, staff members were diligent in their efforts to 
help the state offices become operational. The security and emergency 
preparedness team obtained satellite telephones for the affected 
Senators, and sent staff to the area to work with the family assistance 
center. The Telecommunications Operations team revised calling 
arrangements for forwarded numbers and coordinated the delivery of 
service and equipment to temporary locations. Customer Support Analysts 
made sure that offices received the services they needed, and the 
Employee Assistance Program provided counseling support to staff in the 
area.
    The work of the SAA helped Senate state offices recover quickly. We 
had the ability and the resources to provide even more support, and we 
were prepared to do so in advance of Hurricane Rita. These hurricanes 
and their impact on state offices demonstrated how important it is that 
our continuity of operations and emergency preparedness efforts reach 
beyond Washington, D.C.
    Support for Senate Events.--During Senate events, the staff of the 
Office of the Sergeant at Arms fills crucial roles supporting the 
Senate's tradition of dignity and public access while implementing 
comprehensive security. Since my last testimony before this Committee, 
this office has supported the Lying-in-Honor of Rosa Parks, the annual 
State of the Union address, joint sessions of Congress, visits by 
dignitaries, and high-profile hearings. This past year, two of the most 
visible events were the hearings for John G. Roberts and Samuel A. 
Alito.
    In advance of the Roberts hearings, Sergeant at Arms security staff 
and the Capitol Police worked with the Judiciary and Rules Committees 
to implement the appropriate level of security. Technology and Media 
Galleries staff enhanced the ability of the press to gather information 
and file stories during these historic events. Temporary telephone 
lines, systems, and office equipment were provided. We implemented both 
wired and wireless infrastructure so media representatives could file 
stories and pictures in almost real time. The press and the public were 
accommodated, security was ensured, and the logistics surrounding the 
hearings never became the focus of the story.
    We have a systematic approach for determining security measures for 
the many activities at the Senate and across the Capitol. The Capitol 
Police, with our guidance and support, established a standard matrix 
that they apply to Congressional events. This matrix helps the police 
evaluate threat intelligence, logistics needs, and various criteria 
related to the events; determine what level of security each event 
requires; and assign the appropriate resources. Our Media Galleries 
employ post-event reviews to improve the service they provide. For 
major events, our technology staff reviews past events and looks ahead 
to evaluate what technology is needed and whether a specific event 
requires infrastructure support beyond the level customarily available.
    We have made substantial progress in supporting Senate and Capitol 
events over the past several years. In the face of dramatically 
increased security needs, staff from the Sergeant at Arms and other 
offices supporting the Senate, as well as from across the government, 
coordinate their activities to provide efficient behind-the-scenes 
services to facilitate these historic Congressional events.

 SECURITY AND PREPAREDNESS: PROTECTING THE SENATE AND PLANNING FOR THE 
                                UNKNOWN

    In our security and preparedness programs, we work collaboratively 
with organizations across Capitol Hill to secure the Senate. We also 
rely upon Senate Leadership, this Committee, and the Committee on Rules 
and Administration for guidance and support.
    Almost five years ago, our security programs started in earnest in 
response to an immediate need to protect the Senate and enable it to 
function in the midst of the catastrophic events that were occurring. 
Our programs are now proven and they ensure the continuity of the 
Senate's operations and the safety of its Members, staff, and visitors 
both here in Washington, D.C., and in the state offices. Events of this 
past year have offered opportunities to consolidate our efforts and 
ensure that they are comprehensive and systematic. These efforts 
integrate information technology with our security initiatives to 
deliver a comprehensive approach to security that takes advantage of 
all of the tools that are available to the Senate.
    Our efforts to ensure that we can respond to emergencies and keep 
the Senate functioning under any circumstance have grown over the past 
years. To continue improvements in this area and better manage our 
security and preparedness programs, we have established seven strategic 
priorities to focus our efforts: Emergency Notification and 
Communications; State Office Security and Preparedness; Emergency 
Plans, Organizations, and Facilities; Training; Exercises; Office 
Services; and Accountability.
    Each of the above elements reflects a distinct set of activities 
that support the Senate and that build on the Senate's layered security 
strategy, which is the framework we use to address security challenges.
Emergency Notification and Communications
    Our emergency notification and communications initiatives ensure 
that we have effective communications systems, devices, and 
capabilities in place to support the Senate during an emergency. We 
have improved our notification and communications processes over the 
past year. We expanded the coverage and speed of delivering text alerts 
to the Senate when we integrated BlackBerry and e-mail alerts and 
notifications into one process within the Capitol Police. We expanded 
the telephonic alert system so it now includes more Senate staff 
members and its notification process is significantly faster. With an 
automated process for maintaining emergency contact information, each 
office can now use a Web interface to maintain staff emergency contact 
information and can designate the recipients of alert and notification 
messages. Over 1,100 wireless annunciators are in place across the 
Senate and the Capitol Police have completed the installation of a 
public address system that can broadcast into public areas throughout 
the Capitol and Senate Office Buildings. Further, if the Senate is 
forced to relocate, we have the capability to video teleconference and 
broadcast between an emergency relocation site and other Legislative 
Branch and Executive Branch sites.
    Looking forward, we are prototyping a system to use Senate Cable 
Television to broadcast staff alerts and notifications. We are also 
testing an expansion of our emergency BlackBerry messaging to include 
additional carriers.

State Office Security and Preparedness
    Extending security and emergency preparedness programs to Senate 
state offices remains an important objective of the Sergeant at Arms, 
and this past year's natural disasters point out the importance of this 
program. Over the past several years we have expanded physical security 
and continuity planning support to offices across the country. Physical 
security has been enhanced in 120 state offices, with 51 of the 120 
offices completed in the past year. We are working with another 161 
state offices on their individual security enhancements. Our emergency 
planning support emphasizes including state offices in each Member's 
continuity planning.
    This year we are embarking on a major project to develop and 
implement a comprehensive program for state office security and 
preparedness. The program will establish guidelines, training, 
references, online tools, and other materials to help state offices 
develop and sustain comprehensive security, emergency preparedness, and 
continuity planning.

Emergency Plans, Organizations and Facilities
    Our emergency plans ensure that we attend to the safety of Senate 
Members and staff, and the continuity of the Senate in an emergency. I 
can report that every Member office has completed an Emergency Action 
Plan that is on record with our Office of Security and Emergency 
Preparedness.
    We provide a range of publications and support for establishing, 
maintaining, and testing emergency and continuity plans. The 
publications include the Senate's Planning Guide, which covers both 
emergency preparedness and continuity planning. We established working 
groups to identify and address communications, facilities, 
transportation, and continuity. One gap we have already identified is 
the need for post-event care and family assistance. We are establishing 
plans to provide critical services to affected families following a 
wide-spread event. In cooperation with the Senate's Employee Assistance 
Program, we have conducted training with a core group of employees to 
establish peer support teams. That training will expand this year.

Training
    Training helps Senate staff know what to expect in an emergency and 
how to use the equipment we provide. We train office staff to create 
continuity plans and emergency plans, to use the accountability 
systems, and to work with other staff members if a traumatic event does 
occur. Our training program is coordinated through the Joint Office of 
Education and Training.
    Training activities over the past year included 56 escape hood 
training sessions that were delivered to 1,639 staff members; 19 
chemical, biological, radiological, and explosives briefings for 358 
staff; 10 intern orientations reaching 805 staff; 66 emergency action 
plan training sessions reaching 78 staff; eight training sessions on 
emergency supply kits reaching 55 staff; nine victim rescue unit 
training sessions for 35 staff; 15 office emergency coordinator basic 
and advanced training sessions reaching 131 staff; 16 emergency 
preparedness updates attended by 220 staff; nine mobility impaired 
classes; two shelter-in-place seminars attended by 50 staff; one family 
assistance center workshop attended by 35 staff; and special topic 
seminars for 140 staff. We also developed three new continuity planning 
classes and delivered 13 of them to 150 staff.

Exercises
    We have a comprehensive exercise program to validate, evaluate, and 
practice existing Senate emergency plans, identify gaps in those plans, 
and establish and verify new requirements. This year we conducted nine 
major exercises in partnership with the Capitol Police and other 
Legislative Branch agencies, as well as a number of drills such as 
office building evacuations and other smaller-scale activities. We test 
our alert systems every month by sending test messages to all 
designated staff members. As part of our effort to continuously improve 
these processes, we implemented a system that catalogs and addresses 
observations and findings related to the Senate's emergency response 
programs.

Office Services
    Over the past year we created and distributed informational and 
training brochures to Senate offices. We distributed 3,000 Emergency 
Annunciator System brochures; 6,500 Quick2000 Escape Hood brochures; 
and 6,500 Victim Rescue Unit brochures. What Every Staff Member Should 
Know About Emergencies at the United States Senate was distributed to 
4,500 people; Senate Office Building Evacuation Procedures for Those 
with Mobility Impairments had a distribution of 3,000. We distributed 
3,000 Emergency Supply Kits brochures; 2,000 copies of ``I'm Safe'' 
Phone Home; and 3,500 copies of the Emergency Preparedness Guide. In 
addition, we worked with 105 offices to create tailored emergency 
information cards, over 4,000 of which have been distributed.
    We also published articles and notifications on key security and 
preparedness topics, and completed the rollout of much of our emergency 
preparedness equipment. Wireless emergency annunciators have been 
located across the Senate, and we participated in developing and 
fielding automated emergency defibrillators in our office buildings. We 
have deployed almost 1,200 Victim Rescue Units Senate-wide to 
supplement the escape hood program, and we distributed 407 Emergency 
Supply Kits to Senate offices. Over 20,000 items of equipment that have 
been distributed to offices and throughout Senate buildings have been 
inventoried and checked for serviceability.
    As a last item, the public address system is fully operational in 
all the Senate Office Buildings, garages, cafeterias, and in the Senate 
Child Care Center and the Page dorm. The system will be used to give 
instructions in the public areas of buildings during an emergency.

Accountability
    During a threat or an incident, we must be able to establish an 
accurate and timely accounting of Senate Members and staff. In 
conjunction with the Capitol Police, we placed into production a system 
that provides the ability to take office accountability reports using 
tablet computers and wireless technology. The system maintains a 
database for personnel accountability in the event of emergency. It 
provides office managers and staff with the ability to construct lists 
for notification, delegate responsibilities for continuity activities, 
and track the status of office staff in an emergency. To date, 140 
Senate Member and Committee offices have been trained to use the 
system.
    We deployed a planning template that helps offices establish 
emergency action plans and keep them up to date. We trained 78 Office 
Emergency Coordinators and Chiefs of Staff on accounting for staff 
members, and also trained 220 staff members in emergency preparedness 
this past year.
    As we move forward we are prototyping a remote check-in capability 
that will use BlackBerry devices and will enable staff to check in 
without reporting to the assembly area. We are also testing a system 
that will provide a secure way to account for Senators at a Briefing 
Center or Alternate Chamber. The system will be able to be updated 
real-time.

Mail Safety
    In addition to the priorities and programs outlined above, a 
critical aspect of our security stems from the anthrax and ricin 
incidents in the past years.
    As a result of these serious exposures, all mail and packages 
coming into the Senate are tested, whether they come through the U.S. 
Postal Service or from other delivery services. We have outstanding 
processing procedures in place here at the Senate. The organizations 
that know the most about securing mail cite the Senate mail facility as 
among the best, and when other government agencies look for ways to 
improve their mail security, they visit our facility.
    Last year, the Senate Post Office processed and delivered over 
14,200,000 items to Senate offices, including over 10,000,000 pieces of 
U.S. Postal Service mail; almost 4,000,000 pieces of internal mail that 
are routed within the Senate and other government agencies; almost 
70,000 packages; and over 150,000 courier items. And we are good 
stewards of taxpayer dollars in the process; we processed about 90 
percent of the number of items that the House of Representatives 
processed and we accomplished it for just over one-third of the cost 
that the House incurred.
    Early in fiscal year 2007 we anticipate moving into a newly 
constructed Senate Mail Facility that will include state-of-the-art 
mail and package inspection and testing. The new facility will provide 
a safer and more secure work environment for Post Office employees. The 
Senate Post Office will continue to process U.S. Postal Service mail at 
the new facility using the techniques we currently use. Once we move 
into the new facility, we will also take over package processing, which 
is currently provided by a vendor. We expect that bringing the 
processing of packages in house will increase the security of the 
packages and will save the Senate over $200,000 annually.

Foreign Codels
    Our security efforts are not limited to Capitol Hill, but also 
include security for Senators on foreign Congressional delegations. The 
Consolidated Appropriations Act, 2005 authorized Capitol Police 
officers to travel outside the United States in a liaison capacity to 
coordinate security arrangements for Senators traveling individually or 
as part of a CODEL. SAA staff, the Capitol Police, and the Department 
of State have moved forward on implementing this authority. Capitol 
Police officers have been trained, and, over the next year, will start 
accompanying the State Department security personnel to enhance the 
security for Senators when they travel overseas.

  INFORMATION TECHNOLOGY: A STRATEGY FOR SECURITY AND CUSTOMER SERVICE

    We continue to place special emphasis on leveraging technology to 
enhance security, emergency preparedness, service, and support for the 
United States Senate. Last year we created the Senate's first 
Information Technology Strategic Plan, An IT Vision for Security, 
Customer Service and Teamwork at the United States Senate 2005-2007, 
and this year we are half-way through executing that plan. We have 
already accomplished some impressive results.
  --The Senate's state-of-the-art alternate computing facility, which 
        helps us ensure the Senate's continuity if an event prevents us 
        from using our primary computing facility, has been completed 
        and fully tested.
  --We continue to measure our customers' satisfaction, and to set 
        goals for each year. This year, we set the goal at 80 percent 
        satisfaction, and we exceeded that goal by earning a total 
        customer satisfaction score of 85 percent, based on a 70 
        percent response rate from offices.
  --The Senate's first security operations center, a state-of-the art 
        command center to detect electronic threats and protect the 
        Senate from them, has been developed and implemented.
  --We have implemented the Active Directory and Messaging Architecture 
        in 99 percent of the Senate's offices. This project, the 
        largest and most successful infrastructure project ever 
        undertaken in the Senate, provides a state-of-the-art messaging 
        infrastructure tailored to meet each office's security and 
        privacy requirements.
  --We have installed 95 percent of an award-winning wireless 
        infrastructure that supports cellular telephones, BlackBerry 
        emergency communication devices, and data communications across 
        the Senate campus.
    An IT Vision for Security, Customer Service and Teamwork at the 
United States Senate 2005-2007 provided a structure for setting 
priorities and guiding our activities. The plan outlines a strategic 
technology vision, mission, and five broad information technology 
strategic goals. The first annual revision of the plan, An IT Vision 
for Security, Customer Service and Teamwork at the United States Senate 
2006-2008, was recently produced. This updated plan will enable us to 
serve the Senate better by:
  --Reducing paper-based manual processes and moving business online,
  --Developing a consulting practice to align our information 
        technology organization with the Senate's business 
        requirements, and
  --Creating new information security and assurance initiatives to 
        protect the Senate's technology infrastructure and data from 
        new forms of security threats.
    We continue to invest in information technology and are pursuing 
major initiatives to support the Senate. The increased staffing levels 
requested will enable us to support new business applications, IT 
security, and inventory management.

Secure, Accessible, Flexible and Reliable Systems in a Modern 
        Information Infrastructure
    We are improving the security of the information infrastructure 
that protects data, respects privacy, enables continuous Senate 
operations, and supports our emergency and continuity plans. Our 
efforts over the past year have enabled us to support alternate sites 
and the replication of information, as well as emergency and 
contingency communications. We are delivering increased support for 
remote access and are completing the in-building wireless 
infrastructure. A significant commitment to information technology 
security will increasingly protect the Senate from external threats, 
and the multi-year telecommunications modernization project will 
improve the reliability of the infrastructure. This work all focuses on 
improving the ability of the Senate to accomplish its mission.

            Alternate Sites and Information Replication

    We continue to develop our ability to relocate information systems 
capability at the alternate computing facility (ACF). Every critical 
Senate enterprise information system has been replicated there, and 
this past December we conducted the first comprehensive test of the 
facility; the Senate's primary computing facilities were shut down 
completely and reconstituted at the ACF. This comprehensive exercise, 
which we intend to repeat twice a year, was a complete success. It also 
provided our technical staff with an opportunity to practice the 
procedures they would have to perform in an emergency.
    This past year, with guidance from the Committee on Rules and 
Administration, we provided the Senate's Leadership Offices and 
Committees the capability to replicate all of their data files at the 
ACF. As of February 2006, all of the Leadership Offices and seventeen 
Committees had taken advantage of this capability, which provides the 
Senate with an unprecedented ability to access institutional data in 
the event of an emergency.

            Emergency and Contingency Communications

    We have a comprehensive array of communications systems and options 
available so the Senate will be able to communicate in an emergency. 
This year we conducted final testing on our two Senate emergency 
response communications vehicles. These vehicles have network, 
telephone, and satellite connectivity, and provide the ability to 
relocate much of the Senate's information infrastructure virtually 
anywhere. We have trained deployment teams and are updating the 
vehicles' concept of operations documents.

            Remote Access

    Senate Continuity of Operations and reconstitution sites have been 
equipped with telecommunications, data networks, and video 
teleconferencing. Additionally, mobile and remote computing 
technologies allow Senate staff to access and modify their information 
and communicate from virtually anywhere, anytime. We provide enhanced, 
secure access to e-mail, files, the Senate intranet, and a host of 
applications. We also added the ability to provide inexpensive, secure 
access to our network from overseas. We will continue to enhance and 
expand these capabilities in order to support a potentially dispersed 
workforce and provide the ability to telecommute.

            In-Building Wireless Infrastructure

    This past year we completed installation of an in-building wireless 
infrastructure in all of the Senate Office Buildings. We are now 
working in the Capitol; the basement and attic levels are complete, and 
we will finish installation in the rest of the building this year. This 
innovative system, which won a Government Computing News Best Practices 
Award, improved signal strengths for the carrier for data-only 
BlackBerry service and for the major cellular telephone carriers. The 
infrastructure provides coverage in areas where it was previously poor 
or non-existent and enables Senate staff to connect back to their 
offices wirelessly. The system has substantially paid for itself, 
saving taxpayers nearly $3 million, because the carriers are paying us 
for the right to use it.

            Securing our Information Infrastructure

    During a recent four-month period, our most visible IT system, the 
Senate's website www.senate.gov, was the target of over 17 million 
discrete unsuccessful security events from almost 200,000 different 
Internet addresses. A recent external security review of the site 
helped us make some adjustments that will secure the site even more, 
but the site itself is a prime target for attacks.
    Similar to security in the physical world, security in the 
information technology world requires constant vigilance and the 
ability to deter attacks. The threats to our information infrastructure 
are increasing in frequency and sophistication, and they come from 
spyware, adware, malware, trojans, keyloggers, spybots, adbots, and 
trackware, all of which continuously search for vulnerabilities in our 
systems. Countering the evolving threat environment means increasing 
our awareness of the situation, improving our processes, and 
continually researching, testing, and deploying new security 
technologies. Because we have very little advance notice of new types 
of attacks, we have flexible security control structures and processes 
that are continually revised and adjusted.
    Protecting the Senate's information is one of the most important 
responsibilities of the Sergeant at Arms. This year we have taken 
tremendous strides in this area with the development and operation of 
the Senate's first security operations center (SOC). A redundant SOC is 
currently under construction at the alternate computing facility to 
ensure the Senate's continuity of information security operations. The 
mission of the SOC is to identify and understand threats, assess 
vulnerabilities, identify failure points and bottlenecks, determine 
potential impacts, and remedy problems before they adversely affect 
Senate operations. With the SOC, we implement proactive and preemptive 
actions to deter and thwart attacks on the Senate's information 
infrastructure and prevent compromise of precious and sensitive data.
    We augment this capability with close liaisons to other federal 
agencies to ensure we have the most up-to-date information and 
techniques for combating the threats. Running within the SOC, a state-
of-the-art security information management system aggregates and 
reports on data from a variety of sources worldwide to help us track 
potential attackers before they can harm us. The combination of the 
security operations center, our defense-in-depth capability at all 
levels of our network infrastructure, and our enterprise anti-virus/
anti-spyware programs have proven highly effective.
    One way we determine success in IT security is by measuring and 
tracking what does not happen. Because of improved processes, 
cooperation across the Senate, and improved security technologies, we 
have not experienced a systemic outage within our IT infrastructure due 
to a security incident in two years. Yet the threat environment, as 
measured by detected security incidents, remains very high. The Senate 
relies on electronic mail to carry out its business functions. In the 
past 90 days, our e-mail anti-virus controls detected and eradicated 
over 1.5 million infected e-mail attachments destined for Senate 
accounts. Other anti-virus/worm controls detected and countered 148,472 
viral events from 709 computers located in 120 Senate offices between 
November 20, 2005, and February 20, 2006. During this same period, a 
daily average of only 25-30 individual computers showed signs of 
infection. To date, 136 Senate offices use the managed anti-virus 
systems, and the systems protect over 11,000 Senate computers. This is 
one of the main reasons that worm outbreaks affect only about 60 Senate 
computers while just two years ago, outbreaks infected several thousand 
and caused notable disruption. Our anti-virus products are 
comprehensive.
    Information security must continue to be an area of emphasis and 
growth. We will continue to invest in this technology and we plan to 
increase the size of this group during fiscal year 2007.

            The Senate Telecommunications Modernization Program

    We are currently in the midst of a multi-year plan to modernize the 
Senate's entire telecommunications infrastructure. The modernization 
will provide improved reliability and redundancy to support daily 
operations and continuity concerns, and will take advantage of 
technological advances to provide a more flexible and robust 
communications infrastructure. During this past year we completed 
gathering the requirements and we now are in the final stages of 
preparing a request for proposals to be released this spring. We 
anticipate entering into a contract this summer to upgrade or replace 
Senate telecommunications systems, including the main DMS-100 telephone 
switch, G3i PBX, Conference Bridge, fax broadcast system, Group Alert 
System, voice mail system, and the telecommunications management system 
that we use for provisioning of telephone service and to generate the 
telephone bills and directories.
    Most of the Senate's voice communications infrastructure is based 
on older technologies. Under the telecommunications modernization 
program, we will re-engineer this infrastructure to provide redundancy 
for increased reliability and availability resulting in a state-of-the-
art system built upon converged voice, data, and video communications 
technologies. This approach will allow economies of scale in 
construction and management, and from the user's side, the ability in 
the future to have a synchronized audio and video conference with 
document sharing and collaboration at their workstation. Users may also 
be able to access live or archived video on their workstation, and 
combine information from a database with a telephone call that is being 
transferred from one person to another.

Modern Technology to Enhance Customer Service
            Customer Service, Satisfaction, and Communications
    We continue to pay attention to how well we meet the Senate's 
technology needs. Our third annual CIO Customer Satisfaction survey 
revealed that we reached an overall customer satisfaction rating of 85 
percent. We have conducted follow-up surveys for the last two years, 
and our customer satisfaction rating increased in each of those years. 
These results are very exciting and they indicate that we are moving in 
the right direction. The Customer Satisfaction survey helps the CIO 
organization develop a focused customer satisfaction action plan.
    This year, to provide status and critical information about Senate 
systems more quickly, we instituted a comprehensive system outage 
notification strategy linking e-mail notifications, Help Desk activity, 
and the Senate's intranet to report system outage information in near-
real time. Another new and innovative communication approach we 
implemented is a CIO Web log or blog, which uses the power of the 
intranet as a communication channel to disseminate information to our 
customers quickly.
    We opened a new technology resource center in March that serves as 
a common technology document repository and technical library. This 
facility, with both hard-copy documents and an on-line library, is an 
outstanding resource for sharing technical information and for 
documenting and recording business practices for continuity purposes.
    In addition to our annual comprehensive survey, our Help Desk 
follows all of its service calls with a customer satisfaction survey. 
This past year our Help Desk contractor consistently posted customer 
satisfaction results at or above 96 percent.

            A New Information Technology Support Contract

    The final option period of our current IT support contract ends in 
September 2007. Due to the contract's large size, importance with 
respect to customer service, and complexity, we have begun the process 
of constructing a request for proposals that incorporates the lessons 
we have learned during the current contract. We expect to release the 
request for proposals during the summer of 2006, with contract award in 
early 2007. We plan to allow for a transition period to ensure minimal 
disruption or degradation in service quality.

            A Robust, Reliable, Modern Messaging Architecture

    We are completing deployment of the comprehensive Active Directory 
and Messaging Architecture that provides a spectrum of options for data 
management that ranges from centralized to distributed. A great success 
story, this project began in 2003 with the three primary goals of 
providing a computing platform that would enable offices to replace 
servers running the now-unsupported Windows NT 4 operating system, 
improving the messaging system, and providing offices with choices to 
meet their varying business needs. Technical design was led by CIO 
staff with support from our vendor partners. The design options were 
presented to Senate offices along with the expected impact on each 
office of migrating all computers, user accounts, and e-mail. We 
committed to specific time frames for completing each office migration, 
and we met those timeframes for every office.

            Web-Based and Customer-Focused Business Applications

    The CIO completed the design for the first Senate services portal 
this year. Based on requirements of Senate Leadership and the Committee 
on Rules and Administration, the portal, called TranSAAct, will move 
paper-based, manual processes to the Web. TranSAAct will allow Member 
offices to manage and track invoices for SAA services through a Web 
interface, and it will provide access to a host of Web-based 
applications, such as the on-line Service Academy Nominations System. 
Built on an extensible modern database framework, TranSAAct will allow 
for expansion as new applications are added. With the formal design of 
TranSAAct's first phase complete, we are currently engaged with the 
Administrative Managers Steering Group in a user verification and 
validation process that will lead to complete development and Senate-
wide rollout later this year.
    We have continued delivering support to the Secretary of the Senate 
through improvements and enhancements of the Financial Management 
Information System (FMIS) and the Legislative Information System (LIS). 
We worked with the Secretary supporting FMIS by providing four Web FMIS 
releases which added functionality, improvements to the user interface, 
and enhancements to disaster recovery processes.

            Enhanced Communications and Infrastructure

    A variety of projects will provide enhanced communications within 
and between offices. Enhanced communications are being delivered on an 
improved network infrastructure, and frame relay bandwidth to the state 
offices has been significantly increased to support videoconferencing 
and data replication. The highly successful videoconferencing program, 
which enables staff members in Capitol Hill offices to conduct 
videoconferences with state offices and other remote locations, has 
installed nearly 400 endpoints to date. The electronic fax program is 
replacing stand-alone fax machines with an integrated server-based fax 
system that eliminates paper. We anticipate completion of the 
enterprise tape backup system during this year; the system already 
automatically backs up over one hundred servers located in our primary 
computing facility to the alternate computing facility.

            Promoting Modern Information Technology in the Senate

    A new Technology Demonstration Center, located with our customers 
in the Dirksen Senate Office Building, was opened this past year. At 
the Center, customers can try all of the available information 
technology equipment before making purchases. We also use the Center 
for live demonstrations of new and emerging technologies. We anticipate 
more of these types of activities in the Demonstration Center in the 
upcoming year.
    Last year we hosted two highly successful Senate Emerging 
Technology Conferences and Exhibitions to expose Senate staff members 
to new technologies and concepts. These conferences are designed around 
technology themes of immediate interest Senate-wide.
    In order to perform technology assessments, feasibility analysis, 
and proof of concept studies, we recently created an advanced 
technology assessment laboratory. Technologies and solutions are vetted 
and tested here prior to being announced for pilot, prototype, or mass 
deployment to the Senate. Results of studies performed in the 
laboratory are published on the emerging technology page of the CIO's 
intranet site on Webster. To ensure that the laboratory considers the 
proper technologies and solutions, we have also chartered a Senate-wide 
technology assessment group consisting of members of the CIO 
organization and our customers. The group performs high-level 
requirements analysis and helps prioritize new technologies and 
solutions for investigation in the laboratory, prototype development, 
pilot, and full-scale rollout.

   OPERATIONS AND SUPPORT: CONSISTENTLY DELIVERING EXCELLENT SERVICE

    The commitment to exceptional customer service is a hallmark of the 
Sergeant at Arms organization and the cornerstone of our support 
functions. The groups that make up our support team continue to provide 
exceptional customer service to the Senate community.

Capitol Facilities
    Capitol Facilities staff works around the clock to ensure that the 
furniture and furnishings are of the highest quality, cabinetry and 
framing are outstanding, and the environment within the Capitol is 
clean and professional. We are in the process of implementing an 
integrated work management system with a Web interface for service 
requests. The system will enable customers to view all furnishings 
currently in stock without making an escorted trip to the storage 
facility, to request environmental services and keys, and to view 
special function rooms and request set-ups. Customers will be able to 
check the status of their requests through tracking numbers.
    This past year we also increased our support for the Senate in our 
framing and furnishings areas. We purchased a dry mounting press that 
expands the framing shop's capabilities by enabling permanent mounting 
of newspaper articles and photos, and we implemented a furniture 
finishing protocol that replicates the original finish for historical 
pieces in the Capitol.
    The opening of the Capitol Visitor Center will add 66,500 square 
feet of Senate space to our responsibilities: 41,000 square feet of 
office space, 8,000 square feet of meeting space, and 17,500 square 
feet of other space. Compared to our current obligations, we will clean 
and maintain almost one-third more office space and three times more 
meeting space, and will furnish over 50 percent more office and meeting 
space. This will require us to hire 17 new employees before the Center 
opens.

Printing, Graphics, and Direct Mail
    Printing, Graphics, and Direct Mail, or PGDM, provides printing, 
photocopying, design, and production services to the Senate. Last year, 
it printed 16,850,962 sheets in color (a 12 percent increase over the 
2004 volume, and 400 percent increase over 2003), and it produced 
almost 10,000 floor charts. PGDM provides a variety of other services 
to the Senate including the management of the Senate Support Facility, 
and support for the digital scanning of incoming constituent 
correspondence.
    Senate Support Facility.--We are pleased to report that we have a 
new, fully operational Senate Support Facility that enables us to 
provide secure storage for use by the Secretary of the Senate and the 
Sergeant at Arms. This facility provides a secure, climate-controlled 
environment to warehouse the Senate's historical art and artifacts, 
Senate equipment and supplies, and some of the Senate's emergency 
transportation vehicles. The facility came on-line this past February, 
and all the contents and functions of the six previously dispersed 
warehouse locations have been moved and consolidated into the new 
facility.
    Correspondence Support.--During 2005 the guidance we provided to 
Members' staffs on addressing outgoing mail in a format that takes full 
advantage of postage discounts resulted in savings of almost $2 
million. We also started offering digital scanning of incoming 
constituent mail and outgoing response letters that works in 
conjunction with the existing correspondence management systems. This 
new capability enables users to import images of their office mail. 
Sixteen Senate offices have chosen to use these imaging services, and 
we scanned more than 240,000 documents during the first twelve months 
of this program.

Employee Assistance Program
    Over the past year we enhanced and expanded our Employee Assistance 
Program. The program provides assessments and short-term counseling for 
Senate staff and their family members twenty-four-hours-a-day, seven-
days-a-week. It improves the ability of supervisors to manage troubled 
employees, to enhance the work environment, and to improve employee job 
performance. It also helps employees find the resources they need to 
address some of the personal challenges they face every day. The 
Employee Assistance Program coordinates with security staff to train 
people on reacting to emergencies and to ensure that processes are in 
place to deal with emergencies.
    During the past year, the EAP staff worked with people in the 
offices affected by Hurricane Katrina, and built even stronger 
relationships with managers across the Senate. The staff also trained a 
Peer Support Team that can provide immediate support to employees and 
their family members if they are affected by a critical event.

Recording Studio
    The Recording Studio televises the activity on the Senate Floor and 
in Committee hearings, and it provides a production studio and 
equipment for Senators' use. Last year, it televised all 1,222 hours of 
Senate Floor proceedings, as well as 744 Committee hearings.
    Committee Hearing Room Upgrade.--In 2003 we started a project to 
upgrade and install multimedia equipment in Committee hearing rooms. 
The project included digital signal processing, audio systems, and 
broadcast-quality robotic camera systems.
    To date we have installed upgrades in eight hearing rooms. Several 
more rooms are scheduled for upgrades in the near future. These 
enhancements include improved speech intelligibility and software-based 
systems that we can configure based on individual Committee needs. The 
system's backup will take over within minutes if the main electronics 
fail, and because the system is networked, staff can automatically 
route audio from one hearing room to other hearing rooms to accommodate 
overflow crowds.
    The most significant work we anticipate for the Senate Recording 
Studio over the next year is its move to the Capitol Visitor Center. 
This move will enable the Recording Studio to complete its upgrade to a 
full High Definition facility, and to implement a number of 
improvements that have been planned to coincide with the opening of the 
Center.

Education and Training
    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff in 
Washington, D.C., and in the states. This past year, we conducted an 
assessment of our training program to ensure we are meeting the needs 
of the Senate community. The assessment helped us identify skills that 
are fundamental to success at the Senate, including the ability to 
communicate effectively and collaborate well. We also identified key 
skills for managers and supervisors, including the ability to motivate, 
create a vision, organize, and delegate. In response to the needs we 
identified, we will offer certificate curricula in communications and 
teamwork.
    The Education and Training group offered 425 classes in 2005, with 
6,920 Senate staff members taking advantage of these classes. The 
registration desk handled 31,960 e-mails, telephone calls, and on-line 
registration requests.
    Of the total number of classes, the technical training group 
offered 187 classes to 1,521 staff members, and provided coaching on 
various software packages and other computer-related subjects to 702 
staff members. The professional development area offered 237 classes to 
4,973 students, and delivered more than 50 special training and team 
building sessions to Member and Committee offices. The professional 
development group addresses team performance, communication, and 
conflict resolution, and we encourage managers and supervisors to 
request customized training for their offices. During the last quarter 
of the year, staff from the professional development group offered 
training through video teleconferencing to two state offices. In the 
health promotion area, 1,492 staff members participated in the Annual 
Health Fair held in September, and 1,240 participated in health 
promotion activities throughout the year, including cancer screening, 
bone density screening, and seminars on health-related topics.
    Most of the classes we offer are practical only for staff based in 
Washington, D.C., but we are continuing to expand our offerings to 
state office staff. In 2005 we offered three sessions of the State 
Training Fair to 119 state office staff, and we conducted our annual 
State Directors Forum for the 37 state managers and directors. The 
``Virtual Classroom,'' an Internet-based training library of over 500 
courses, also enables state office staff to take advantage of the 
Senate's training resources; 379 staff members from state offices and 
Washington, D.C., have taken advantage of this training option.

                        CHALLENGES FOR NEXT YEAR

    We met the challenges that we faced this year, and adapted our 
responses to provide better service and support to the Senate. While we 
do not know all the challenges next year will bring, we can anticipate 
some of them. We expect that the Capitol Visitor Center will open, that 
we will start to move forward on an enhanced process for issuing and 
accounting for Congressional identification and access cards, and that 
this year's election will result in some changes in the membership of 
the Senate. We also know that we will face challenges related to IT 
security, our technical infrastructure, and our work moving the 
Senate's business to the Web. We are planning for these changes.

Capitol Visitor Center
    The opening of the Capitol Visitor Center (CVC) will affect much of 
the work of this office. The Capitol Facilities group will be affected 
dramatically, since the work of that group will expand to include one-
third more space than it currently maintains. The opening will also 
affect the Senate Recording Studio, which will move into the new space. 
The CVC incorporates significant security features, and we are working 
with other agencies to develop the processes to ensure that the Capitol 
remains secure.
    As part of the Capitol Visitor Center, we are installing state-of-
the-art communications facilities in the Senate expansion space. We 
will provide a redundant communications path into the Capitol, and our 
in-building wireless coverage for cellular devices will extend into the 
core of the Center as well as into the Senate expansion space. We will 
also provide any additional office automation equipment required by the 
occupants of the space. Since most of the CVC's occupants are going to 
relocate from elsewhere on Capitol Hill, we do not expect to spend a 
significant amount of money on new equipment.

Congressional Identification and Access Cards
    The Executive Branch is implementing a major initiative to use 
Smart Cards as standard identification and access cards across all 
departments of the federal government. We have been following the 
progress it is making, and are also looking to determine how to 
increase the security surrounding identification and access cards 
issued at the Senate and across the Legislative Branch agencies. The 
processes for issuing cards are different across the Capitol campus. We 
are starting to work with representatives from each major Legislative 
Branch agency to identify the requirements that satisfy each agency's 
or organization's security policies so we can determine how we might 
create standard processes. Just within the Senate, we issue 
identification and access cards to people from the media, pages, 
interns, temporary staff, full-time staff, and others. During the 108th 
Congress, we issued 41,000 cards--15,000 to the press. The challenge of 
tracking and recovering these cards has been daunting. By undertaking 
this initiative, we expect to be able to increase the accountability 
for the cards and the security of the Senate.

Transition to New Congress
    This year, we will also face one challenge that we face every other 
year: the transition to a new Congress. Thirty-three Senators face 
election this year, and four Members have announced their retirement, 
so we will have at least four new Senators next year. The transition 
includes providing space for newly elected Senators, and providing the 
whole range of support they need to set up their offices and start 
accomplishing their work for the American people. We provide 
orientation for newly elected Senators, their Chiefs of Staff, and 
their Administrative Managers. We work to ensure that newly elected 
Senators learn about the resources available to help them serve their 
constituents and accomplish their legislative goals. We also make sure 
returning Senators and staff receive up-to-date information about the 
services available.
    We are engaged in closing down state and Capitol Hill offices of 
departing Members, equipping the transition office to house Senators-
elect from the date of election until the beginning of the next 
Congress, moving the newly sworn-in Senators into their temporary 
suites, and then moving offices as required during the regular office 
move process.
    For closing offices, we shut down all communications services, 
determine which equipment can be inherited by Members' successors, and 
inventory and remove all equipment in coordination with the other 
activities of the office. For new and relocated offices, we establish 
all communications facilities, acquire and install all office 
automation and general office equipment, and ensure that everything 
works as it should.

IT Security
    In the IT security threat environment, the list of potential 
threats to our information infrastructure is growing in number and 
sophistication. Over the next year, we will meet the challenge of 
managing a volatile security environment by: (1) expanding the role of 
the recently established security operations center; (2) optimizing our 
current configuration of security controls; (3) improving our 
collaboration with other federal agencies in the areas of incident 
response and situational awareness; (4) evaluating, testing, and 
deploying new security control mechanisms; and (5) enhancing 
communication with IT staff in Member and Committee Offices to give 
them timely and usable information in order to improve the security 
posture of their local IT systems.

Information Technology Infrastructure
    We will complete the build out of the wireless infrastructure for 
laptops; for the Parking, Guide Service, and Capitol Police radio 
systems; and for the Senate Cloakroom paging systems. We will also 
aggressively pursue alternative hand-held communications devices and we 
will ensure that any devices we support will deliver seamless emergency 
notifications. Finally, over the next year we will award the 
telecommunications modernization contract and complete its first 
phases. This comprehensive upgrade and replacement of our 
telecommunications systems will enable the Senate to take advantage of 
Voice over Internet Protocol and converged voice, video, and data 
communications.

Moving Business to the Web and Enterprise Software Initiatives
    We will continue our initiatives to reduce paperwork and move 
business to the Web by developing the TranSAAct portal to deliver and 
integrate services and systems and provide two-way Web interaction 
between customers and service providers. As we move forward on 
TranSAAct, we are working with Senate customers to identify and 
integrate additional requirements. We are also planning for the next 
major release of Microsoft's operating system, Vista. Deploying this 
system and integrating it with other applications will require 
tremendous effort. Building on these developments, we will work toward 
integrating systems and applications through a Web-services 
architecture that will reduce redundancy and eliminate ``stove-pipe'' 
systems.

                               CONCLUSION

    We take our responsibilities to the American people and to their 
elected representatives seriously. The Office of the Sergeant at Arms 
is like dozens of small businesses, each with its own primary mission, 
each with its own measures of success, and each with its own culture. 
It has a fleet of vehicles that serves Senate Leadership, delivers 
goods, and provides emergency transportation. Our Photography Studio 
records historic events, takes official Senate portraits, provides the 
whole range of Capitol photography services, and delivers thousands of 
pictures each year. The SAA's printing shop provides layout and design, 
graphics development, and production of everything from newsletters to 
floor charts. The Office of the Sergeant at Arms also operates a page 
dormitory, a hair salon, and parking lots. It provides many other 
services to support the Senate community, including framing, flag 
packaging and mailing, and intranet services. Each of these businesses 
requires personnel with different skills and different abilities. One 
thing that they all have in common, though, is their commitment to 
making the Senate run smoothly.
    Over the past year, the staff of the SAA has kept the Senate safe, 
secure, and operating efficiently. This Committee and the Committee on 
Rules and Administration have provided active, ongoing support to help 
us achieve our goals. We thank you for your support and for the 
opportunity to present this testimony and respond to any questions you 
may have.
              Appendix A--Fiscal Year 2007 Budget Request
                              attachment i
                  financial plan for fiscal year 2007
          office of the sergeant at arms--united states senate

                                                EXECUTIVE SUMMARY
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                    Fiscal      Fiscal       Fiscal Year 2006
                                                                   Year 2006   Year 2007 -----------------------
                                                                    Budget      Request                 Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries....................................................     $56,700     $62,604      $5,904        10.4
    Expenses....................................................     $65,505     $79,211     $13,706        20.9
                                                                 -----------------------------------------------
      Total General Operations & Maintenance....................    $122,205    $141,815     $19,610        16.0
                                                                 ===============================================
Mandated Allowances & Allotments................................     $55,282     $57,757      $2,475         4.5
Capital Investment..............................................     $17,262     $19,831      $2,569        14.9
Nondiscretionary Items..........................................      $3,951      $4,640        $689        17.4
                                                                 -----------------------------------------------
      TOTAL.....................................................    $198,700    $224,043     $25,343        12.8
                                                                 ===============================================
Staffing........................................................         910         944          34         3.7
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services and equipment, we submit a fiscal year 2007 
budget request of $224,043,000, an increase of $25,343,000 or 12.8 
percent compared to fiscal year 2006. The salary budget request is 
$62,604,000, an increase of $5,904,000 or 10.4 percent, and the expense 
budget request is $161,439,000, an increase of $19,439,000 or 13.7 
percent. The staffing request is 944, an increase of 34 FTEs.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
  --The general operations and maintenance salaries budget request is 
        $62,604,000, an increase of $5,904,000 or 10.4 percent compared 
        to fiscal year 2006. The salary budget increase is due to the 
        addition of 34 FTEs, a COLA, and merit funding. The additional 
        staff will support the Capitol Visitor Center, augment our 
        security team, expand services, and meet new requirements for 
        the Senate community.
  --The general operations and maintenance expenses budget request for 
        existing and new services is $79,211,000, an increase of 
        $13,706,000 or 20.9 percent compared to fiscal year 2006. Major 
        factors contributing to the expense budget increase are 
        emergency preparedness in security operations and planning, 
        $7,847,000; additional services and locations under the IT 
        support contract, $1,535,000; telephone system maintenance, 
        $1,097,000; consulting and equipment purchases for the Active 
        Directory Messaging Architecture, $1,024,000; and maintenance 
        costs related to Enterprise Storage, $585,000.
  --The mandated allowances and allotments budget request is 
        $57,757,000, an increase of $2,475,000 or 4.5 percent compared 
        to fiscal year 2006. This variance is primarily due to an 
        increase in Member mail system costs, $1,745,000; and state 
        office security enhancements of $700,000, offset by decreases 
        in office lease costs.
  --The capital investment budget request is $19,831,000, an increase 
        of $2,569,000 or 14.9 percent compared to fiscal year 2006. The 
        fiscal year 2007 budget request includes funds for the 
        replacement and upgrade of the telephone system, $10,475,000; 
        data network engineering costs, $2,345,000; electronic printing 
        and publication network, $1,800,000; hardware purchases related 
        to the SAN upgrade, $1,750,000; and the Network Upgrade 
        project, $1,646,000.
  --The nondiscretionary items budget request is $4,640,000, an 
        increase of $689,000 or 17.4 percent compared to fiscal year 
        2006. The request funds three projects that support the 
        Secretary of the Senate: contract maintenance for the Financial 
        Management Information System (FMIS), $3,703,000; maintenance 
        and necessary enhancements to the Legislative Information 
        System (LIS), $840,000; and maintenance and enhancements to the 
        Senate Payroll System, $97,000.
     attachment ii.--fiscal year 2007 budget request by department
    The following is a summary of the SAA fiscal year 2007 budget 
request on an organizational basis.

                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                    Fiscal      Fiscal       Fiscal Year 2006
                                                                   Year 2006   Year 2007 -----------------------
                                                                    Budget      Request                 Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
Capitol Division................................................     $25,568     $35,399      $9,831        38.5
Operations......................................................     $52,515     $53,558      $1,043         2.0
Technology Development..........................................     $41,153     $47,676      $6,523        15.9
IT Support Services.............................................     $66,927     $71,901      $4,974         7.4
Staff Offices...................................................     $12,537     $15,509      $2,972        23.7
                                                                 -----------------------------------------------
      TOTAL.....................................................    $198,700    $224,043     $25,343        12.8
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and discussed in detail on 
the next pages.

                                                CAPITOL DIVISION
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                    Fiscal      Fiscal       Fiscal Year 2006
                                                                   Year 2006   Year 2007 -----------------------
                                                                    Budget      Request                 Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries....................................................     $14,530     $15,908      $1,378         9.5
    Expenses....................................................      $7,938     $15,691      $7,753        97.7
                                                                 -----------------------------------------------
      Total General Operations & Maintenance....................     $22,468     $31,599      $9,131        40.6
                                                                 ===============================================
Mandated Allowances & Allotments................................      $3,100      $3,800        $700        22.6
Capital Investment..............................................  ..........  ..........  ..........  ..........
Nondiscretionary Items..........................................  ..........  ..........  ..........  ..........
                                                                 -----------------------------------------------
      TOTAL.....................................................     $25,568     $35,399      $9,831        38.5
                                                                 ===============================================
Staffing........................................................         273         278           5         1.8
----------------------------------------------------------------------------------------------------------------
The Capitol Division consists of the Executive Office, the Office of Security and Emergency Preparedness, the
  U.S. Capitol Police Operations Liaison, Post Office, Recording Studio and Media Galleries.

    The general operations and maintenance salaries budget request is 
$15,908,000, an increase of $1,378,000 or 9.5 percent. The salary 
budget increase is due to the addition of five FTEs, a COLA and merit 
increases, and other adjustments. The Office of Security and Emergency 
Preparedness requires an additional COOP planning specialist, and the 
Post Office will add four mail specialists to handle the opening, 
examining, and sampling of commercially delivered packages to the new 
Senate offsite processing facility.
    The general operations and maintenance expenses budget request is 
$15,691,000, an increase of $7,753,000 or 97.7 percent, and will 
primarily will fund security consultants and services required by the 
Office of Security and Emergency Preparedness.
    The mandated allowances and allotments budget request for state 
office security initiatives is $3,800,000.

                                                   OPERATIONS
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                   Fiscal      Fiscal        Fiscal Year 2006
                                                                  Year 2006   Year 2007 ------------------------
                                                                   Budget      Request                  Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...................................................     $16,592     $18,308      $1,716         10.3
    Expenses...................................................      $5,971      $6,323        $352          5.9
                                                                ------------------------------------------------
      Total General Operations & Maintenance...................     $22,563     $24,631      $2,068          9.2
                                                                ================================================
Mandated Allowances & Allotments...............................     $27,332     $26,777       ($555)        -2.0
Capital Investment.............................................      $2,620      $2,150       ($470)       -17.9
Nondiscretionary Items.........................................  ..........  ..........  ...........  ..........
                                                                ------------------------------------------------
      TOTAL....................................................     $52,515     $53,558      $1,043          2.0
                                                                ================================================
Staffing.......................................................         302         319          17          5.6
----------------------------------------------------------------------------------------------------------------
The Operations Division consists of the Central Operations Group (Director/Management, Parking Office, Printing,
  Graphics and Direct Mail, Photo Studio, and Hair Care Services), Facilities, and the Office Support Services
  Group (Director, Customer Support, State Office Liaison, IT Request Processing and Administrative Services).

    The general operations and maintenance salaries budget request is 
$18,308,000, an increase of $1,716,000 or 10.3 percent. The salary 
budget increase is due to the addition of 17 FTEs, an expected 3.5 
percent a COLA, and merit increases. Facilities expects to hire 17 
staff to maintain the Senate expansion space in the Capitol Visitor 
Center.
    The general operations and maintenance expenses budget request is 
$6,323,000, an increase of $352,000 or 5.9 percent. In Printing, 
Graphics and Direct Mail, increases in software and equipment 
maintenance, $185,000, and purchased equipment, $120,000, are offset by 
a decrease in warehouse rent, $860,000. Facilities furnishings and 
materials increase $516,000.
    The mandated allowances and allotments budget request is 
$26,777,000, a decrease of $555,000 or 2.0 percent. This decrease is 
due to projected decreases in commercial and federal office expenses.
    The capital investment budget request is $2,150,000, a decrease of 
$470,000 or 17.9 percent. Funding is requested to purchase a new 
electronic printing and publishing network, $1,800,000, and to replace 
photo printing equipment and upgrade software, $250,000.

                                             TECHNOLOGY DEVELOPMENT
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                    Fiscal      Fiscal       Fiscal Year 2006
                                                                   Year 2006   Year 2007 -----------------------
                                                                    Budget      Request                 Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries....................................................     $11,787     $13,127      $1,340        11.4
    Expenses....................................................     $22,948     $23,398        $450         2.0
                                                                 -----------------------------------------------
      Total General Operations & Maintenance....................     $34,735     $36,525      $1,790         5.2
                                                                 ===============================================
Mandated Allowances & Allotments................................  ..........  ..........  ..........  ..........
Capital Investment..............................................      $2,467      $6,511      $4,044       163.9
Nondiscretionary Items..........................................      $3,951      $4,640        $689        17.4
                                                                 -----------------------------------------------
      TOTAL.....................................................     $41,153     $47,676      $6,523        15.9
                                                                 ===============================================
Staffing........................................................         134         140           6         4.5
----------------------------------------------------------------------------------------------------------------
The Technology Development Services includes the Technology Development Director, Network Engineering and
  Management, Enterprise IT Operations, Systems Development Services, Information Systems Security and Internet/
  Intranet Services.

    The general operations and maintenance salaries budget request is 
$13,127,000, an increase of $1,340,000 or 11.4 percent. The salary 
budget increase is due to the addition of six FTEs, a COLA and merit 
funding for fiscal year 2007. Technology Development requires six FTEs 
to support the growing demand on IT Security, to meet additional 
requirements for the ACF, and to eliminate of a backlog of development 
projects.
    The general operations and maintenance expense budget request is 
$23,398,000, an increase of $450,000 or 2.0 percent. This increase is 
due to increased equipment maintenance and professional services costs 
in IT Security, $422,000; the purchase of computer and mainframe 
equipment and furnishings in Enterprise IT Operations, $638,000; and 
hardware and software maintenance for Enterprise Storage, $585,000, 
offset by a decrease in support costs for the Senate Messaging 
Infrastructure, $1,000,000.
    The capital investment budget request is $6,511,000, an increase of 
$4,044,000 or 163.9 percent. Major projects include the SAN Upgrade, 
$1,750,000; network upgrade in support the Telecom Modernization Plan, 
$1,550,000; and the fiber optic migration, $900,000.
    The nondiscretionary items budget request is $4,640,000, an 
increase of $689,000 or 17.4 percent. The request consists of three 
projects that support the Secretary of the Senate: contract maintenance 
for the Financial Management Information System (FMIS), maintenance and 
necessary enhancements to the Legislative Information System (LIS), and 
maintenance and enhancements to the Senate Payroll System.

                                               IT SUPPORT SERVICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                   Fiscal      Fiscal        Fiscal Year 2006
                                                                  Year 2006   Year 2007 ------------------------
                                                                   Budget      Request                  Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...................................................      $5,714      $6,260        $546          9.6
    Expenses...................................................     $24,663     $27,821      $3,158         12.8
                                                                ------------------------------------------------
      Total General Operations & Maintenance...................     $30,377     $34,081      $3,704         12.2
                                                                ================================================
Mandated Allowances & Allotments...............................     $24,850     $27,180      $2,330          9.4
Capital Investment.............................................     $11,700     $10,640     ($1,060)        -9.1
Nondiscretionary Items.........................................  ..........  ..........  ...........  ..........
                                                                ------------------------------------------------
      TOTAL....................................................     $66,927     $71,901      $4,974          7.4
                                                                ================================================
Staffing.......................................................         105         107           2          1.9
----------------------------------------------------------------------------------------------------------------
The IT Support Services Department consists of the Director, Office Equipment Services, Telecom Services and
  Desktop/LAN Support branches.

    The general operations and maintenance salaries budget request is 
$6,260,000, an increase of $546,000 or 9.6 percent. The salary budget 
will increase due to the addition of two FTEs, a COLA, and merit 
funding for fiscal year 2007. The additional FTEs will support 
procurement activities and provide advanced technical expertise.
    The general operations and maintenance expenses budget request is 
$27,821,000, an increase of $3,158,000 or 12.8 percent. The most 
significant factors contributing to this increase are telephone system 
maintenance costs, $1,097,000, and annual escalations in the IT Support 
Contract, $1,535,000.
    The mandated allowances and allotments budget request is 
$27,180,000, an increase of $2,330,000 or 9.4 percent. Major factors 
contributing to this budget request are voice and data communications 
for Washington D.C. and state offices, $17,395,000; procurement and 
maintenance of Members' constituent mail systems, $6,000,000; 
procurement and maintenance of office equipment for Washington D.C. and 
state offices, $2,857,000; and Appropriations Analysis and Reporting 
System, $500,000.
    The capital investment budget request is $10,640,000, a decrease of 
$1,060,000 or 9.1 percent, and consists primarily of equipment 
purchases for the replacement of the Capitol Hill telephone system, 
$10,475,000.

                                                  STAFF OFFICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal Year 2007 vs.
                                                                    Fiscal      Fiscal       Fiscal Year 2006
                                                                   Year 2006   Year 2007 -----------------------
                                                                    Budget      Request                 Percent
                                                                                            Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries....................................................      $8,077      $9,001        $924        11.4
    Expenses....................................................      $3,985      $5,978      $1,993        50.0
                                                                 -----------------------------------------------
      Total General Operations & Maintenance....................     $12,062     $14,979      $2,917        24.2
                                                                 ===============================================
Mandated Allowances & Allotments................................  ..........  ..........  ..........  ..........
Capital Investment..............................................        $475        $530         $55        11.6
Nondiscretionary Items..........................................  ..........  ..........  ..........       100.0
                                                                 -----------------------------------------------
      TOTAL.....................................................     $12,537     $15,509      $2,972        23.7
                                                                 ===============================================
Staffing........................................................          96         100           4         4.2
----------------------------------------------------------------------------------------------------------------
The Staff Offices Division consists of Education and Training, Financial Management, Human Resources, Employee
  Assistance Program, Process Management & Innovation, and Special Projects.

    The general operations and maintenance salaries budget request is 
$9,001,000, an increase of $924,000 or 11.4 percent. The salary budget 
increase is due to the addition of four FTEs, a COLA, and merit 
funding. Process Management and Innovation requires two FTEs to oversee 
the Active Directory Messaging Architecture. Human Resources and 
Employee Assistance Program each requests an additional FTE to 
accommodate increased staff and demand.
    The general operations and maintenance expenses budget request is 
$5,978,000, an increase of $1,993,000 or 50.0 percent. The bulk of this 
increase is due to funding for Process Management and Innovation's 
professional services and consultants in support of information 
technology prototypes and innovation research and development.
    The capital investment budget request is $530,000, an increase of 
$55,000 or 11.6 percent, for continuing project support.

                           STAFFING INCREASES

    Senator Allard. Well, thank you. I have a few questions 
that I feel that we need to ask to fully understand what kind 
of plan you are putting together. As we have mentioned, you 
have requested 34 additional staff. Half of those are for the 
CVC--they are new jobs. The other half is for duties and 
responsibilities outside the Capitol Visitor Center, and I 
would like to have an explanation of why you need those and 
what functions are driving that additional staff requirement 
outside the Capitol Visitor Center.
    Mr. Pickle. Okay. Mr. Chairman, if I may, let me give you a 
broad answer for those 17 outside the Capitol and then give you 
a written response that breaks down each position. I think this 
will give you a much more thorough answer.
    Senator Allard. That would be helpful.

                              MAIL SAFETY

    Mr. Pickle. Okay. Essentially, the 17 positions outside the 
CVC are positions that, for the most part, support or enhance 
security. For instance, 4 of those 17 are positions that will 
go to our new mail and package facility. As you know, we 
currently process our own mail at the Senate Post Office. It 
will be a state-of-the-art facility that this subcommittee has 
funded. By all accounts, it's one of the best in the Nation. A 
vendor currently processes packages, and we are taking over the 
package screening and delivery process ourselves. We will use 
four Federal employees to do it. We believe the cost savings 
will be about $200,000 per year. We base this on what we are 
currently paying to the vendor, and we also base it on what we 
see being done on the House side. I like to brag a little bit 
about our staff and what this subcommittee has supported in 
that regard. We currently process about 90 percent of the mail 
volume that the House does. A lot of people think it should be 
much more on the House side, but it's not. Our volume is 90 
percent of the House's volume. Yet, we process that mail at 
almost a $7 million savings per year because we use Senate 
employees. We think similar savings--not as great--will result 
from using Senate employees for the packaging process. In 
addition to those four staff members, there are other FTEs 
sprinkled throughout the SAA to support network applications, 
technology, as well as security and preparedness. One of the 
positions which I do want to highlight for just a moment is in 
our Employee Assistance Program. I don't think people realized 
how important that program is until we began to professionalize 
it here several years ago. Our Employee Assistance Program is 
under a lot of demand from the Senate community. As you know, 
every time we have an incident or a crisis here, we are 
overwhelmed with the particular needs of the staff who work 
here. This program also helps and benefits each office a great 
deal. It helps managers. It helps staff directors. It teaches 
staff to deal with employees that may have some problems and 
issues. It is a single position, but it's a very important 
position. And so what I would like to do with all the others, 
if I may, is give you a much more detailed breakdown, sir.
    [The information follows:]
       Sergeant at Arms Position Justification--Fiscal Year 2007
    Department: Office of Security & Emergency Preparedness
    Branch/Section: Continuity Programs
    Position Title: Continuity Of Operations Planning (COOP) Planning 
Specialist
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB10, $67,675-
$101,508
    Essential Duties of Position: The new staff will operationally 
support the continuity program's existing relocation facilities and 
those that are coming online or being planned for fiscal year 2006. The 
new staff will work from classified or sensitive sites to ensure the 
Senate's operational viability, and will support the State Office COOP 
planning efforts that were initiated in fiscal year 2006.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. Some of these duties are being performed 
now. Current staff is assigned to support primary contingency 
facilities within the National Capitol Region and to support Member 
Offices' COOP planning efforts, but this leaves other facilities 
unattended with questionable operational status in the event of an 
emergency. The COOP planning support for Members' DC and State office 
locations is currently not being adequately supported and this work 
will overwhelm our current planning and preparedness capabilities.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If the request is not approved, the level of 
planning, preparedness, and response to ensure an effective transition 
to a continuity of operations situation for Member Offices, Committees, 
Senate Offices, and the Senate as a whole will not be adequate. Not 
approving this position would limit our ability to support Member and 
Committee Offices' continuity planning efforts as well as our ability 
to ensure facility readiness for the Senate as a whole.

    Department: Facilities
    Branch/Section: Environmental Services
    Position Title: Facilities Worker
    No. of Positions Requested: 14
    Pay Band Pay Band & Salary Range: Salary Range: PB3, $33,824-
$50,733
    Essential Duties of Position: The new facilities day staff will 
clean corridors, perform stairway maintenance, set up water for special 
events, and clean up waste. Throughout the day, the staff will ensure 
that the area is clean, decontaminated, and free of all fluid, debris, 
spots, stains and odor. The staff will assist in moving furniture, 
delivering non-furniture items, cleaning public restrooms, setting up 
for special events, and removing trash.
    The new facilities night staff will clean elevators and stairwells, 
conduct early morning room set-ups and break downs, and clean corridors 
and restrooms. The staff will also undertake nightly office cleaning 
and floor care, and will spot clean fabric wall panels.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are not currently being 
performed. They will be required upon the opening of the Senate 
Expansion Space of the CVC.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, we believe that 
the cost of contracting these services at the service level the Senate 
expects would be prohibitive. Capitol Facilities provides a 
significantly higher level of service than does the AOC's contractor. 
Capitol Facilities consistently delivers the high level of service 
required by the Senate, including an environment that is consistently 
dust-, debris-, and smudge-free; restrooms that are stocked, cleaned 
and sanitized; and floors that are free of dust, debris, soil and 
stains.

    Department: Facilities
    Branch/Section: Environmental Services
    Position Title: Lead Facilities Worker
    No. of Positions Requested: 2
    Pay Band Pay Band & Salary Range: Salary Range: PB4, $37,581-
$56,368
    Essential Duties of Position: New staff will dedicate 75 percent of 
their time to performing the same duties as the Facilities Workers that 
make up their teams. The remaining time will be dedicated to inspecting 
the team's work.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are not currently being 
performed. They will be required upon the opening of the Senate 
Expansion Space of the CVC.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, we believe that 
the cost of contracting these services at the service level the Senate 
expects would be prohibitive. Capitol Facilities provides a 
significantly higher level of service than does the AOC's contractor. 
Capitol Facilities consistently delivers the high level of service 
required by the Senate, including an environment that is consistently 
dust-, debris-, and smudge-free; restrooms that are stocked, cleaned 
and sanitized; and floors that are free of dust, debris, soil and 
stains.

    Department: Facilities
    Branch/Section: Facilities Management
    Position Title: Facilities Services Supervisor
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB6, $46,395-
$69,593
    Essential Duties of Position: New staff will assign work, provide 
performance accountability, and provide leadership to the team leaders 
and facilities workers. In addition this staff member will plan work, 
ensure adherence to safety procedures and measures, and ensure that 
staff members comply with Capitol Facilities policies and procedures.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are not currently being 
performed. They will be required upon the opening of the Senate 
Expansion Space of the CVC.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, facilities 
workers and team leaders will not have the guidance necessary to meet 
the cleaning and service needs of the Senate Expansion Space. Customer 
service and customer service will be affected adversely.

    Department: Post Office
    Branch/Section: Package Delivery Services
    Position Title: Mail Specialist
    No. of Positions Requested: 3
    Pay Band Pay Band & Salary Range: Salary Range: PB3, $33,824-
$50,733
    Essential Duties of Position: New staff will screen all incoming 
commercial carrier package deliveries (e.g., deliveries from UPS, 
FedEx, DHL, etc.). In addition, these three specialists will process 
items that are too large for the Congressional Acceptance Site.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are currently being performed 
by a contractor. The current service levels provided by the contractor 
are inadequate and result in late deliveries, incorrect routings, and 
damaged, lost, and unprocessed items.
    The new positions are requested to enable the Senate Post Office to 
bring the processing of packages in house. We expect that this will 
result in significantly better service. The cost to the Senate is 
approximately $170,000 per year, but will result in savings in excess 
of $200,000 annually.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, the Senate will 
continue to experience inadequate service levels, and it will not 
realize the $200,000 savings that we anticipate. The Senate will have 
to continue contractor support at approximately $470,000 per year. 
Costs and savings represent total amounts for the Package Delivery 
service.

    Department: Post Office
    Branch/Section: Package Delivery Services
    Position Title: Lead Mail Specialist
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB4, $37,581-
$56,368
    Essential Duties of Position: New staff will monitor employees 
processing commercial carrier packages (e.g. FedEx, UPS, DHL, etc.) and 
ensure that proper screening procedures are followed at all times.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are currently being performed 
by a contractor. The current service levels provided by the contractor 
are inadequate and result in late deliveries, incorrect routings, and 
damaged, lost, and unprocessed items.
    The new position is requested to enable the Senate Post Office to 
bring the processing of packages in house. We expect that this will 
result in significantly better service. The projected salary cost for 
one Lead Mail Specialist is $36,000 in fiscal year 2007. Cost to the 
Senate is approximately $50,000 per year, but will result in savings in 
excess of $200,000 annually.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, the Senate will 
continue to experience inadequate service levels, and it will not 
realize the $200,000 savings that we anticipate. The Senate will have 
to continue contractor support at approximately $470,000 per year. 
Costs and savings represent total amounts for the Package Delivery 
service.

    Department: Technology Development
    Branch/Section: Systems Development--Enterprise Database Support
    Position Title: Senior Information Technology Specialist
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: Pay Band 10, 
$67,675-$101,508
    Essential Duties of Position: New staff will administer Windows 
System and SQL Server Databases.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. Duties are currently being performed by 
one individual in the Enterprise Database Support group. Significant 
growth in demand for services and advanced technology implementations 
of this software have created a critical need for additional resources. 
The same person who performs these duties also ensures continuous 
systems availability and performs disaster recovery duties. Having only 
one person with the expertise and daily involvement with the underlying 
architecture that supports critical Senate services, such as Senate.gov 
and the ADMA Blackberry backend database, puts the Senate in a 
precarious position.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, services will 
continue to be supported, but not as rapidly as the demand warrants. In 
addition, Senate services may be severely affected by lack of support 
if our single existing resource is unavailable.

    Department: Technology Development
    Branch/Section: Enterprise IT Operations--Enterprise Ops
    Position Title: Information Technology Operations Specialist
    No. of Positions Requested: 3
    Pay Band Pay Band & Salary Range: Salary Range: PB6, $46,395-
$69,593
    Essential Duties of Position: New staff will manage current 
production systems that are running at the ACF, such as the enterprise 
SILO tape backup system, systems failed over to the ACF, and various 
facility related tasks. Duties also include providing first response to 
problems during emergencies, backing up the primary facility support 
duties for the 24 X 7 Blackberry server, and monitoring and 
administering the Senate's email system and payroll applications.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are being performed by one 
thinly staffed shift at the ACF five days per week. Some of the duties 
are being conducted remotely and some by rotating Primary Computing 
Facility staff from Postal Square. However, significant gaps exist.
    With the continued evolution of the systems running from the ACF 
there is a need to fully support the ACF with multiple shifts. The ACF 
is now running key services, such as all enterprise backups of critical 
applications. Transitioning into a multi-shift operation, similar to 
the operation of the primary computing facility, is needed to support 
the continued expansion of workload, and to maintain a continuously 
efficient operation.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, we run the risk 
of delaying resolution of system problems that arise outside of normal 
business hours. We also run the risk of delaying response time in the 
case of an emergency, and directly affecting business continuity.

    Department: Technology Development
    Branch/Section: IT Security
    Position Title: Senior Information Security Specialist
    No. of Positions Requested: 2
    Pay Band Pay Band & Salary Range: Salary Range: PB10, $67,675-
$101,508
    Essential Duties of Position: The new staff would collect and 
analyze data in the Security Operations Center and resolve or eliminate 
anomalies/security events; assist Member offices on network security 
issues; monitor SAA enterprise systems; improve external contact in 
order to stay abreast of rapidly changing computer network attack 
profiles; and make full use of new enterprise-wide security 
technologies deployed this year that allow us to perform activities 
that were formerly performed by contractors. Staff also will provide 
support and analysis associated with the new capabilities in Symantec 
client software (firewall, anti-spyware/adware, etc.).
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. IT Security currently has staff that 
performs most of the essential duties described, but the staff will not 
be able to meet the additional demands it anticipates. Due to the 
number of new security initiatives that are the result of increasing 
threats, the overall workload of the staff continues to grow. Security 
issues and systems are increasingly complex, requiring more time and 
resources for satisfactory resolution and adequate backup.

    Department: IT Support Services
    Branch/Section: Office Equipment Services--Order Services
    Position Title: Senior Procurement & Supplies Specialist
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB 5, $41,756-
$62,635
    Essential Duties of Position: New staff will handle wireless device 
issues including provisioning telecommunications/wireless services, 
providing advanced troubleshooting for major vendors and systems, using 
a comprehensive understanding of multiple product lines and service 
offerings to provide rate and service plan analysis for customers, 
conducting complete hot swaps, modifying accounts, and providing 
billing support.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are currently being performed 
by SAA staff. Senate wireless equipment needs have increased 
dramatically over the past two years and the trend is continuing. 
Although staffing levels have remained the same, Senate staff expects 
wireless equipment to be available immediately. Current resources make 
it extremely difficult to stay abreast of the ordering demands and the 
programming and tracking of wireless equipment.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, the SAA will not 
be able to fully meet the Senate's service level expectations. We think 
that the least costly approach is through hiring an additional staff 
member as opposed to contracting for this support. We do not believe 
that reduced service levels are acceptable to the Senate.
    The pay salary range will be $41,756 to $62,635. When a contractor 
was approached about the possibility of providing one person to do only 
some of the duties discussed above, their cost estimate was $150,000 to 
$175,000 per year.

    Department: IT Support Services
    Branch/Section: Desktop/LAN Support--CMS Coordination
    Position Title: Principal Information Technology Specialist
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB 11 Pay Range: 
$73,086-$109,628
    Essential Duties of Position: This position will evaluate and guide 
vendor development efforts in the areas of Web development, electronic 
messaging, and electronic document management; lead projects, 
especially those related to constituent e-mail processing; be a 
technical resource for other CMS Coordination staff; and perform 
liaison work with other SAA departments.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These tasks are currently being performed 
by contract staff that has been engaged to provide these capabilities. 
The new position is being requested in order to continue to have access 
to this level of experience and expertise.
    If this request is not approved, what will be the service or cost 
impact on the Senate: If this request is not approved, the CMS 
Coordination group will continue to incur the higher cost of 
contracting out for this position. The CMS Coordination group supports 
the existing model for correspondence management, but in order to adapt 
to the changes that will result from the introduction of new electronic 
communications capabilities in Senate offices and an anticipated 
increase in the number of CSS vendors, we need additional staff. The 
new staff must have in-depth expertise in Web form development, 
electronic messaging, and electronic document management. Because CSS 
vendors will soon operate within a different, more stringent contract 
structure, existing staff's time will be fully committed to ensuring 
contract compliance. In addition, existing staff will oversee the e-
Newsletter vendor contracts. These activities will require all of the 
existing CMS Coordination resources. The pay range for the new position 
is $73,086-$109,628. The position is currently contracted out at 
$205,577 per year.

    Department: Process Management & Innovation
    Branch/Section: IT Research & Deployment--Technology Assessment
    Position Title: Principal Information Technology Specialist
    No. of Positions Requested: 2
    Pay Band Pay Band & Salary Range: Salary Range: PB11, $73,086-
$109,628
    Essential Duties of Position: The new positions will be responsible 
for all aspects of the Active Directory & Messaging Architect (ADMA) 
design. All design changes, security updates, migration processes, 
software updates, product upgrades, and add-in products, whether part 
of the core system or peripherally integrated, must go through a 
rigorous design, testing, pilot, and implementation process.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are currently being performed 
by on-site contractor staff at an annual cost of approximately 
$600,000. Replacing these contractors with staff will create a 
significant dollar savings for the Senate and will allow for more 
flexibility in work assignments. These duties will be ongoing for many 
years to come and the recurring annual dollar savings will be over 
$300,000.
    An additional benefit is continuity of institutional knowledge. On-
site contractors are subject to periodic personnel changes. When 
contractors leave, all of the Senate-specific technical and business 
institutional knowledge leaves with them and there is a significant 
learning curve and negative service impact associated with the 
replacement of staff. This situation will be avoided by using permanent 
Senate staff.
    If this request is not approved, what will be the service or cost 
impact on the Senate: The current cost of on-site contractors 
performing these duties is approximately $600,000 per year. The cost of 
these FTEs will easily be less than $300,000 resulting in at least a 
$300,000 savings.

    Department: Staff Offices
    Branch/Section: Human Resources
    Position Title: Human Resources Technician
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB5, $41,756-
$62,635
    Essential Duties of Position: The new staff will be responsible for 
scanning personnel records into the personnel records management 
system, which will be implemented during fiscal year 2006. This staff 
member also will provide support to the HR Administrators in carrying 
out their labor relations responsibilities with respect to the unions 
representing Capitol Facilities and Recording Studio employees.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. These duties are not being performed now. 
A vendor has been chosen for the records management system and we are 
working on an implementation plan. Negotiations on Collective 
Bargaining Agreements are currently underway with the two unions 
representing the Capitol Facilities and Recording Studio employees.
    If this request is not approved, what will be the service or cost 
impact on the Senate: It would be impossible for the current HR 
Technician to assume this new workload. If this position is not 
approved, HR Administrators will be required to assume these lower-
level responsibilities and the level of service that will be provided 
to clients will be adversely affected. It will take longer to classify 
positions, it will take longer to fill positions, training activities 
will be provided less frequently, availability to consult with clients 
will be affected, etc. In order to accomplish essential functions and 
to meet critical deadlines, we might be required to pay overtime to 
non-exempt staff and to provide compensatory time to other staff.

    Department: Staff Offices
    Branch/Section: Employee Assistance Program
    Position Title: EAP Counselor
    No. of Positions Requested: 1
    Pay Band Pay Band & Salary Range: Salary Range: PB9, $62,260-
$93,388
    Essential Duties of Position: The new staff will provide 
comprehensive mental health assessment, referral, and follow-up 
services in the workplace and provide counseling and short-term therapy 
for staff and family members on a wide range of sensitive and complex 
matters. Staff will also counsel supervisors in the recognition and 
referral of employees with problems and promote good mental health 
practices through articles, training programs, publications, Web page, 
etc.
    Are these duties being performed now? If yes, state by whom and why 
a new position is requested. The present EAP (staff of two) is trying 
to cover these duties.
    If this request is not approved, what will be the service or cost 
impact on the Senate: With a reduction in proactive outreach to 
troubled employees there will be higher turnover, an impact on moral, 
and, in some cases, an impact on employee productivity.

                           STAFFING INCREASE

    Senator Allard. I want to follow up on that with some other 
questions. If we are not able to provide the increases that you 
asked for, would we get a decrease in services?
    Mr. Pickle. I think it's a combination of the two. And the 
best analogy I can use--in 1997, I believe it was, or 1998, 
there was a conscious effort on the part of the Sergeant at 
Arms to reduce FTEs. There was about a 50 FTE reduction that 
year. By all accounts, from people who are still here and the 
people we deal with, after the reduction, the services that we 
provided did not meet expectations. September 11 exacerbated 
the problem. It created additional needs. It created a need for 
additional staff and additional technologies. We will keep 
plugging away and do the very best job, and that will be our 
goal, but I think there will be some diminishing of services.
    Senator Allard. Well, we're looking at the chart here on 
your FTE budget for the Sergeant at Arms, and I see where we 
had a decrease in personnel from 2000 to 2001.
    Mr. Pickle. Yes.
    Senator Allard. And then from there, we have a regular 
steep climb----
    Mr. Pickle. Yes.
    Senator Allard [continuing]. In personnel. And so, I would 
like to get back to the 18 that you requested last year.
    Mr. Pickle. Yes.
    Senator Allard. Can you tell us the status of those new 
hires?
    Mr. Pickle. Out of the 18 positions you gave us last year, 
12 have been filled. The other six have been announced and 
posted. Two of those six had job offers made to them, but they 
withdrew their acceptance and did not come onboard. So, we 
still have six of those which have been posted but not filled. 
Our dilemma is that some of these jobs are of such significance 
and importance to us that we don't want--especially in the 
technology area--to take people just to fill the slot. We are 
looking for the very best. So we may penalize ourselves 
somewhat by not hiring right away, but I think that's the best 
course of action.
    Senator Allard. Okay. We want to look at that closely.
    Mr. Pickle. I understand.
    Senator Allard. You have four there that haven't been 
filled for various reasons, and I assume that that request you 
made is in addition to the 18 that we provided for last year.
    Mr. Pickle. Yes, the 34 are in addition. Yes, sir.

CUSTODIAL WORKERS FOR THE SENATE CAPITOL VISITOR CENTER EXPANSION SPACE

    Senator Allard. Now, there are 17 personnel you have 
included that are supposed to be for cleaning and maintaining 
the expansion space in the Capitol Visitor Center. The 
Architect of the Capitol, if you have noticed his budget, has 
included $1.5 million for a custodial contract for the entire 
Capitol Visitor Center. So, it looks from our point of view as 
though there has been a double accounting here. Doesn't it make 
sense to let AOC contract out for this requirement?
    Mr. Pickle. You know, I think in a perfect world, it makes 
sense that we have one organization do everything. It just 
makes sense. The only reason I believe we have a Capitol 
facilities division that does maintenance, is that the Senate 
was a little unhappy with some of the contract work done years 
ago. It was a decision made by whomever was in charge at that 
time that the maintenance functions be put under the Senate, 
and that's why we have a Capitol facilities division that does 
maintenance and cleaning on the Senate side of the Capitol. I 
don't have any strong feelings on it except to say that it's 
usually better when you have people who are working around the 
Senate and sensitive information and documents, its better to 
have people who work for you, who you have some control over. 
You have a much more stable workforce. Now, whether this is an 
in-house workforce under the Architect or under us, I really 
don't care. I just think that we need to get the best people we 
can.
    Senator Allard. It might be that we have to try a 
contractor. If it doesn't work out, we could always go back----
    Mr. Pickle. Sure.
    Senator Allard [continuing]. The other route.
    Mr. Pickle. Sure.
    Senator Allard. But it's something we'll look at, at least.
    Mr. Pickle. Mr. Chairman, you know, I think what--the way 
we envisioned that--and it's pretty simplistic. We currently 
maintain the Senate wing of the Capitol. What we are going to 
have in the CVC is an expansion of the Senate wing. So, we were 
just going to enlarge our workforce to cover that. But again, 
whatever makes economic sense and is more efficient, we are all 
for.

                  SECURITY AND EMERGENCY PREPAREDNESS

    Senator Allard. The budget for the security and emergency 
preparedness has grown from $4 million in 2002 to $8.5 million 
in fiscal year 2006. And there's another large increase we're 
looking at for this year----
    Mr. Pickle. Yes.
    Senator Allard [continuing]. A total of $18 million. Why 
are we looking at an increase of this magnitude, and can we 
begin to expect the budget to begin to level out instead of 
seeing these large double-digit increases?
    Mr. Pickle. It is a large increase at first blush. But I 
think that much of what we have in the area of security has 
been funded since 2002 in part by the Emergency Response Fund 
(ERF) as well as reprogramming that this subcommittee has 
allowed us to do and provided for us. The ERF funds have 
decreased. We now have items that need to be funded on an 
annual basis, and the supplemental is no longer available. 
These items have a life cycle to them. There are other items 
which are services and outsourced services that we provide here 
on the Hill--and these are all new services since 2001-2002 for 
the most part and to over 450 State offices. So, the job has 
increased enormously. I would like to say there is a 
moderation, but in all honesty, I don't see how it's going to 
moderate much. I think once we have a base, we will try to live 
within that base, and obviously, we will live within what we 
are given. But we simply meet the demands of the Senate, and 
what we are----
    Senator Allard. Have you looked at what funding we have 
picked up in ongoing programs and emergency funding and--how 
many years out we may be looking at before we can stabilize our 
base, assuming that we don't have any more emergency 
appropriations?
    Mr. Pickle. I have not personally, but we will get an 
answer for you on that.
    Senator Allard. I think that would be helpful to the 
committee to understand what is happening in that area.
    Mr. Pickle. We'll do it.

                      TELEPHONE SYSTEM REPLACEMENT

    Senator Allard. Can you give me an update on the status of 
the telephone system replacement and what's happening there?
    Mr. Pickle. Last year, this subcommittee provided about 
$10.5 million for the telecommunications modernization plan. 
This year, we are asking for another $10.5 million. We are near 
the completion of our RFP, or request for proposal, that will 
go out to the different vendors in the communications industry. 
We are hoping to start right away on making some of the changes 
here, modernization changes. As you know, it's a lot of money. 
I think you asked me the question last year, will we spend all 
$10 million in the one fiscal year. My answer was probably not. 
And we were absolutely right; we haven't spent it all. Do we 
need to do it? We do. The current telephone system is 20 years 
old. So, and in the past 20 years, technology has changed 
tremendously. The industry is going toward a converged 
technology where you have a convergence of digital, video, and 
voice data. We need to do things such as replace switches, 
replace handsets--all the handsets--we need to make sure that 
our voice mail works, that all of the different wireless 
devices we have, whether they are Blackberry or cell phones or 
pagers, can be integrated. It's a big job, and it will take 
some time.
    Senator Allard. Yes, and there are some changing 
technologies. Voice over Internet Protocol----
    Mr. Pickle. Yes.
    Senator Allard [continuing]. Has the potential to save a 
lot of money, but that technology has to be worked out. There 
are some issues as to the domain that have to be worked out 
before we get those kinds of things, but it means things are 
getting more competitive. And hopefully, we can hold down 
costs.
    Mr. Pickle. Well, they certainly are, and we fully believe 
that the bids that we get will include Voice over Internet 
protocols. We know that the phone industry, the 
telecommunications industry, believes that's where we are going 
with telephony.
    Senator Allard. Yes. Do you still expect the cost to total 
close to $20 million when we're all done?
    Mr. Pickle. To my understanding, approximately $20 million.
    Senator Allard. Okay, and I am assuming that you are 
expecting an improvement in service to the end users?
    Mr. Pickle. Absolutely, yes--my CIO is going to guarantee 
it.

                        MAIL PROCESSING FACILITY

    Senator Allard. I'm glad they're here to hear that. Okay, 
let's talk a little bit about the mail processing facility. 
What's the status of this facility, and what are your total 
cost projections there?
    Mr. Pickle. The mail facility--I believe our total cost is 
$14.9 million, some of which has come from the supplemental. We 
hope to have the mail facility completed in the near future. 
We're going to take one of our remote mail facilities, and move 
it to another facility here, a little west and north of us. And 
at the mail facility, we are going to be able to do the mail 
processing and screening, as well as the package delivery and 
screening. So, it will be one consolidated location. And we're 
within budget, and we're meeting the milestones there.

                           VENDOR DELIVERIES

    Senator Allard. Okay. Now, following up on this, the one 
part of it is the process, and the other one is the delivery 
here to the Capitol----
    Mr. Pickle. Yes.
    Senator Allard [continuing]. And you're planning on 
implementing, on a pilot basis, a new method of transferring 
deliveries (other than mail) to the Capitol. Could you tell me 
a little bit about the status of that pilot project?
    Mr. Pickle. Yes. Currently the Capitol Police have a remote 
site. They had a permanent site, but they have been forced to 
move for various reasons, and they are at an interim site now. 
Essentially what takes place there is many of the goods which 
are destined for the Capitol are delivered there, they're 
examined or screened, and then they are transported here to the 
Capitol. I don't want to get into much more than that if you 
don't mind. We are revalidating our requirements. We are 
working closely with the Architect and the House and also 
having discussions with the Library of Congress. What we are 
proposing to do is create a new transfer model. And in very 
simple terms, what it will do is it will allow us to receive 
goods and perishables and other items at a remote site. These 
items will be offloaded from vendors trucks. They will be 
screened and examined, and declared safe. They will be put on 
Government trucks and delivered here to the Capitol. There are 
several advantages to this. First of all, we reduce 
dramatically the number of trucks you see here on the campus, 
and that's a big security issue. We also have items delivered 
by trusted employees, Federal employees who have been vetted 
and had background checks conducted on them. And third, it 
should save us in damaged goods, late goods and perishables, 
and lost goods.
    Senator Allard. Ultimately, that could lead to us having 
our own truck fleet here on the Capitol.
    Mr. Pickle. It would--yes, but at a very small level. I 
would compare it to something you see at other agencies such as 
the State Department, the White House, or the CIA, very 
similar. It's a very cost-effective process, I understand, from 
looking at these programs.

                           STRATEGIC PLANNING

    Senator Allard. Now, in your opening comments, you talked 
about trying to meet our interests as far as setting down goals 
and objectives and meeting those. Is this what you refer to as 
your strategic plan?
    Mr. Pickle. Strategic plan, yes it is.
    Senator Allard. When will you have that available?
    Mr. Pickle. We should have that--I'm going to look over my 
shoulder--in a month. I got the right answer, yes.
    Senator Allard. Okay. Well, we'll look forward to having it 
in a month.
    Mr. Pickle. Okay, great. Thank you.
    Senator Allard. Well, we do look forward to seeing what you 
have put together there.
    Mr. Pickle. Thank you.
    Senator Allard. I don't believe we have any more questions. 
I want to thank you for your service.
    Mr. Pickle. Thank you very much.
    Senator Allard. I believe you are going to be here for the 
next panel as well.
    Mr. Pickle. Yes, sir, the next couple, I think.
    Senator Allard. So, we're not going to let you off too easy 
here----
    Mr. Pickle. Okay.
    Senator Allard [continuing]. This morning.
    Mr. Pickle. Thank you, sir.
                       U.S. CAPITOL POLICE BOARD

STATEMENT OF HON. WILSON LIVINGOOD, CHAIRMAN, CAPITOL 
            POLICE BOARD AND CAPITOL GUIDE SERVICE
ACCOMPANIED BY:
        HON. WILLIAM H. PICKLE, SERGEANT AT ARMS AND DOORKEEPER
        HON. ALAN HANTMAN, ARCHITECT OF THE CAPITOL, FAIA
        CHRIS McGAFFIN, ACTING CHIEF OF POLICE

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. So now we'll move to the next panel. We 
have before us now the Capitol Police Board. I want to thank 
all of you for your service, and we're expecting testimony from 
Mr. Livingood and Acting Chief McGaffin. Mr. Livingood.
    Mr. Livingood. Yes, sir.
    Senator Allard. You'll go first, and then we'll call on 
Acting Chief McGaffin.

                     STATEMENT OF WILSON LIVINGOOD

    Mr. Livingood. Good morning, Mr. Chairman.
    I am honored to appear before you today to discuss the U.S. 
Capitol Police fiscal year 2007 budget request. With me today 
are the members of the Capitol Police Board--Bill Pickle, Alan 
Hantman, and also with us today is the Acting Chief of Police, 
Chris McGaffin.
    Before I begin, Mr. Chairman, I would like to thank the 
subcommittee for their ongoing support of the men and women of 
the U.S. Capitol Police. Your commitment to their continued and 
diligent efforts to develop better security operations, 
response forces, and law enforcement capabilities has 
significantly contributed to providing a safe and secure 
environment for Members of Congress, staff, constituents, and 
the general public.
    The Capitol Police Board appreciates the opportunity to 
present and discuss the issues and challenges behind the 
Capitol Police fiscal year 2007 budget request. The security 
challenge confronting the U.S. Capitol Police today remains 
constant and complex. However, it is a challenge the department 
successfully manages each day of the year.
    The Capitol Police Board is acutely aware of the need for 
fiscal restraint. To address the absolute requirement for 
fiscal restraint, we work on a regular basis with the 
administrative and financial team of the Capitol Police in the 
exercise of appropriate financial management in all areas and 
divisions of the department. In addition, we have been 
judicious in the new initiatives we included in our request. 
The goal is methodical and consistent fiscal management.
    In keeping with prior conference committee directives, good 
management of our core process, and maximum utilization of our 
workforce, the Capitol Police has made a concerted effort to 
contract out activities that would benefit from outsourcing. 
Our fiscal year 2007 budget submission includes proposals for 
continuing funding for these outsourced activities as well as 
proposals for new outsourced activities. This will allow the 
U.S. Capitol Police to more fully concentrate on its core 
security mission.
    It is that core mission for which I want to offer my thanks 
to the men and women of the U.S. Capitol Police. They 
coordinate the people, organizations, and resources necessary 
to respond to a variety of threats we face today. It is an 
extremely difficult job to manage a legislative complex 
completely open to the public while at the same time ensuring 
the safety of the Congress, staff, and visitors against 
increased threats. It is a job the U.S. Capitol Police perform 
with skill and excellence everyday.
    The men and women of the Capitol Police have the Board's 
greatest respect. We speak to them every day, and we listen to 
them. Each one considers it an honor to protect, serve, and 
welcome our citizens and people from around the world to our 
Nation's Capital who come to participate in the legislative 
process, to witness democracy in action, and partake in the 
history of this unique place.

                   ACCOLADE TO DEPARTING CHIEF GAINER

    Today is Chief Gainer's final day with the U.S. Capitol 
Police. I know I speak for all the members of the Capitol 
Police Board when I extend my deepest thanks to him for his 
services to the Capitol Police department and to the Congress. 
Chief Gainer is first and always a cop's cop. Through his 
leadership, the capabilities of the department have been 
greatly enhanced. Every person who works here or visits here is 
a beneficiary of his hard work, dedication, and 
professionalism. We wish him well and the very best as he 
begins the next phase in his career.
    Thank you, Mr. Chairman.
    [The statement follows:]

                 Prepared Statement of Wilson Livingood

    Mr. Chairman and Members of the Committee, I am honored to appear 
before you today to discuss the U.S. Capitol Police fiscal year 2007 
budget request. With me today are the members of the Capitol Police 
Board, William Pickle, Senate Sergeant at Arms, and Alan Hantman, 
Architect of the Capitol. Christopher McGaffin, the Acting Chief of 
Police is also with us.
    Before I begin Mr. Chairman, I would like to thank the committee 
for their ongoing support of the men and women of the U.S. Capitol 
Police. Your commitment to their continued and diligent efforts to 
develop better security operations, response forces and law enforcement 
capabilities, has significantly contributed to providing a safe and 
secure environment for Members of Congress, staff, and the general 
public.
    The Capitol Police Board appreciates this opportunity to present 
and discuss the issues and challenges behind the U.S. Capitol Police 
fiscal year 2007 budget request. The security challenge confronting the 
U.S. Capitol Police today remains constant and complex. However, it is 
a challenge that the Department successfully manages each day of the 
year.
    The Capitol Police Board is acutely aware of the need for fiscal 
restraint. To address the absolute requirement for fiscal restraint, we 
work on a regular basis with the administrative and financial team of 
the Capitol Police in the exercise of appropriate financial management 
in all areas and divisions of the Department. In addition, we have been 
judicious in the new initiatives we included in our request. The goal 
is methodical and consistent fiscal management.
    In keeping with prior conference Committee directives, good 
management of our core process and maximum utilization of our 
workforce, the U.S. Capitol Police has made a concerted effort to 
contract out activities that would benefit from outsourcing. Our fiscal 
year 2007 budget submission includes proposals for continuing funding 
for these outsourced activities as well as proposals for new outsourced 
activities. This will allow the U.S. Capitol Police to more fully 
concentrate on its core security mission.
    It is that core mission for which I want to offer my thanks to the 
men and women of the U.S. Capitol Police. They coordinate the people, 
organizations, and resources necessary to respond to the variety of 
threats we face today. It is an extremely difficult job to maintain a 
legislative complex completely open to the public, while at the same 
time ensuring the safety of the Congress, staff, and visitors against 
increased dangers. It is a job performed with skill.
    The men and women of the Capitol Police have my greatest respect. I 
speak to them every day, and I listen to them. Each one considers it an 
honor to protect, serve, and welcome our citizens and people from 
around the world to our Nation's Capitol--who come to participate in 
the legislative processes, to witness democracy in action, and partake 
in the history of this unique place.
    Mr. Chairman, on behalf of the Capitol Police Board, I would like 
to thank you for this opportunity to appear before you today, and for 
your consideration of this budget request.
    I would now like to introduce Acting Chief McGaffin who will 
present the Capitol Police's fiscal year 2007 Budget in more detail.

    Senator Allard. Well, thank you for your statement. And 
now, we'll go to Acting Chief McGaffin.

                   STATEMENT OF CHRISTOPHER MC GAFFIN

    Acting Chief McGaffin. Mr. Chairman, I'd like to tell you 
also that it's an honor to appear before this subcommittee 
today with the Capitol Police Board and to represent the United 
States Capitol Police in this hearing. We are here to present 
our fiscal year budget for 2007, but I am also here to thank 
you, the Senate and this subcommittee for all the support that 
it's given us over the years. I'll finish 34 years of service 
to the United States Capitol Police and to the Congress this 
July, and I have watched this police department grow and 
professionalize over these several decades significantly 
because of the support of Members of Congress and the United 
States Senate like yourself, sir. And if I can take this moment 
to thank you personally for all that you have done for this 
police department, the men and women of this police 
department--those who are still here serving with me and those 
who have retired over the last several decades, I'd like to do 
that as well. I have submitted remarks and my testimony for the 
record, and I am very much looking forward to answering 
questions you may pose today.
    Senator Allard. We'll make those remarks part of the 
record.
    [The statement follows:]

               Prepared Statement of Christopher McGaffin

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before the Appropriations Committee today to 
discuss the United States Capitol Police fiscal year 2007 budget 
request. The United States Capitol Police maintains the honor of 
protecting the Congress, its legislative process, as well as staff and 
visitors from harm. We protect and secure Congress so it can fulfill 
its constitutional responsibilities in a safe and open environment. As 
the foremost symbol of American representative democracy, Congressional 
operations are a highly visible target for individuals and 
organizations intent on causing harm to the United States and 
disrupting the legislative processes of our government. It is the duty 
of the men and women of the Capitol Police to do all in our power to 
prevent these acts and, if such acts, should occur, to respond 
appropriately to ensure the safety and well being of our stakeholders.
    The employees of the Unites States Capitol Police are dedicated to 
their work and thus we as a team have had significant accomplishments 
in the past year, including:
  --Greeted and screened over 8.7 million staff and visitors throughout 
        the Capitol Complex and screened over 59,500 people for three 
        holiday events; conducted over 17,000 canine explosive 
        detection sweeps; coordinated over 3,300 special events and 
        dignitary visits; screened over 85,000 vehicles and 72,000 
        individuals at the Capitol Visitors Center as work proceeded 
        uninterrupted; screened over 574,000 vehicles by the TIGER 
        Team; conducted 136 physical security assessments; and 
        performed 521 electronic countermeasures assessments as well as 
        other protective functions.
  --Gained re-accreditation by the Commission on Accreditation for Law 
        Enforcement Agencies, Inc. (CALEA). This repeated, independent, 
        outside validation of our preparation and compliance with 
        national standards clearly affirms our Strategic Plan, strength 
        of policies, training, operational readiness and overall 
        professionalism and indicates that the USCP has achieved a 
        level of excellence and has internalized positive change.
  --Implemented a new financial management system in 12 months, on time 
        and within budget, for the first time in the history of the 
        Department.
  --Developed a strategy and identified requirements and business 
        processes for the implementation of the Asset Management System 
        which will bring greater accountability and control over assets 
        within the Department, as well as, launched the first steps to 
        align the Department's internal controls with government-wide 
        standards.
    In the ever-changing threat environment, the U.S. Capitol Police 
accomplishes its mission through varied, and complementary functions to 
provide round the clock protection to Congress. In an effort to 
maintain the flexibility of Department operations and maintain 
operational readiness, the USCP over the past several years, with the 
support of Congress, has made significant investments in human capital 
and Department infrastructure. This has been accomplished by augmenting 
our intelligence capabilities and coordination among the intelligence 
community, hardening our physical security and counter surveillance 
capabilities, automating antiquated security and administrative support 
systems, enhancing our detection and response capabilities for 
explosive devices as well as chemical and biological agents, and 
augmenting our incident command and emergency response and notification 
systems. Each of these and their related activities has come with high 
resource requirements for maintenance in order to ensure that our 
systems are operational 24/7. The majority of these infrastructure 
investments were funded with emergency, supplemental or reprogrammed 
prior year funding and now require annual, on-going operational 
maintenance and life cycle replacement.
    Our fiscal year 2007 budget request of $295.1 million represents an 
increase of $48.1 million or 19.5 percent over the enacted amount for 
fiscal year 2006, adjusted for rescissions. This includes an increase 
of $31.4 million for personnel costs and $16.7 million for non-
personnel costs. However, when the $10 million from the no-year 
reprogramming of funds, approved by your Committee, was used to support 
fiscal year 2006 operational requirements, is taken into consideration 
the requested increase is $38.1 million or 14.8 percent.
    The Congress has made the commitment through resources and policy 
support to create a formidable Police Department with diverse 
capabilities designed to deter or respond to any threat to the Capitol 
Complex. Over the last 5 years, the Department has grown in human 
capital, security infrastructure, command and control and, security and 
law enforcement capability. The Department has a tremendous base of 
capabilities, which requires substantial resources to maintain. The 
intent of this budget request is to address targeted manpower needs and 
the annual sustainment of the Department's capabilities, which have 
been sourced through a variety of means. From a manpower perspective, 
the Department is continually reviewing its operational concept to 
determine the most effective manner in which to conduct operations. The 
intent of this effort is to be as effective and efficient as possible.
    New initiatives in our fiscal year 2007 budget request include 
additional personnel resources for both sworn and civilian; outsourcing 
background and polygraph functions in Human Resources, Information 
Systems maintenance and replacement systems, operating costs for the 
Office of Inspector General as well as the new Office of Professional 
Responsibility; new costs for activities acquired from other agencies 
such as maintenance of the radio communications systems transferred 
from the Senate and certain security equipment maintenance from the 
Department of Defense.
    The following represents a more detailed look at the USCP fiscal 
year 2007 request.
    Personnel.--The fiscal year request for salaries of $246,700,000 
supports the current authorized FTE levels, as well as, an additional 
request of 91 new officer FTEs for critical operational requirements, 
10 additional FTEs for Library of Congress (LOC) attrition and seven 
new civilian support positions. With the new officers, the sworn FTE 
level is 1,759. The revised civilian FTE level is 421 for a total 
Department FTE count of 2,180. Included in the personnel budget is a 
request for overtime. Staffing levels are driven by security needs and 
augmented by overtime to meet operational requirements. The 494,700 
hours requested consist of 449,300 hours for sworn and 45,400 hours for 
civilians. The $28.1 million request is based on estimated overtime 
posting and coverage requirements and approximate costs for sworn 
manpower shortage, late sessions of Congress, Special events, security 
alerts, arrests and court time and a small amount of civilian overtime 
requirements.
    Non-Personnel.--The fiscal year request for non-personnel items is 
$48,383,000. The following highlights the majority of the non-personnel 
request for the USCP.
  --$16,900,000 is for Physical Security.--This includes contractual 
        support for physical security maintenance and support projects 
        such as comprehensive preventive maintenance to support the 
        maintenance, repair and preventive maintenance of the security 
        systems on the Capitol Complex on a 24/7 basis. Included are 
        security installation support, security network, and 
        specialized security equipment; the camera system, vehicle 
        barriers, and the annunciators; maintenance of security 
        equipment such as current CCTV equipment, Digital Video 
        Recorder, metal detectors and X-ray packages; Life Cycle 
        Replacement of equipment such as Duress Alarms for Members and 
        Committees; Card Access and Intrusion Alarms.
  --$11,232,000 is for Information and Communication.--This includes 
        maintenance, repair, licensing and support of new and existing 
        systems such as engineering professional services and radio 
        systems contract support, annual contracts supporting 
        Blackberry and Nextel devices and fit out of the radio van. 
        Information Systems modernization Phase III includes systems 
        such as the Asset Management System, Case Management system and 
        Web portal system; Lifecycle replacement for such items as 
        Personal Computers due to be replaced, radio support, Nextels, 
        Verizon phones, purchase and refreshment of Police Radios.
  --$4,318,000 is for Protective Services.--This will provide 
        appropriate travel related funding for the Dignitary Protection 
        Division (DPD) to ensure the safety and security of the 
        Congressional Leadership and other Congressional Protectees. 
        The funding for the last 3 years has required reprogramming 
        each year to meet costs. Travel increases are related to fuel 
        costs, rental cars and hotel costs. External training is 
        requested for protective operations.
  --$2,916,000 is for Human Resource Management.--This provides for 
        contractual services for Human Resources Management such as the 
        National Finance Center for payroll administration; AVUE, which 
        is the HR Management system; Time and Attendance System 
        Programming and employee training (Workbrain system) and the 
        outsourcing of 6 sworn staff for the Background check and 
        polygraph function. This will free up the 6 sworn officers to 
        be put back in to the field and will offset the number of new 
        positions required for the CVC. This request also includes 
        $400,000 for tuition reimbursement for USCP employees.
  --$2,731,000 is for Financial Management and Accountability.--This 
        includes contractual support for the Office of Financial 
        Management including Audit and Review Services, Outsourcing 
        contract support and a cross servicing agreement for the 
        financial management system. This line item also includes 
        funding for agency wide projects such as copier maintenance, 
        vehicle fuel and tort claims.
  --$2,664,000 is for Logistic Support.--This includes funding for 
        refreshment of uniforms, purchase of new uniforms for new 
        recruits and other officers such as K-9 and CERT officers. 
        Funding is also requested for maintenance and repair of the 
        Police vehicle fleet.
  --$786,000 Hazardous Incident Response.--This represents replacement 
        of a bomb suit for hazardous devices. Also includes maintenance 
        for such items as radiological and biological detectors and 
        hazardous material equipment, life cycle replacement and 
        purchase of required equipment and supplies for the hazardous 
        material response team to comply with OSHA and other safety 
        standards.
    In keeping with prior Conference Committee directives, good 
management of our core processes and maximum utilization of our 
workforce, the USCP has made concerted efforts to contract out 
activities that are conducive to outsourcing. Our fiscal year 2007 
budget submission includes our proposals for continuing funding for 
these outsourced activities as well as proposals for new outsourced 
activities, allowing the USCP to concentrate on its expertise. The 2007 
request includes outsourcing services in the amount of $20.4 million, 
which includes information technology, physical security systems and 
maintenance, administration, background and polygraph services, 
veterinarian services, security control operators, financial asset 
management system, accounts payable, and installation of equipment.
    The U.S. Capitol is still faced with numerous threats, including a 
vehicle-borne explosive attack, terrorist-controlled aircraft attack, 
armed attacks on the Capitol Complex, suicide bombers or positioned 
explosive attacks, chemical, biological and/or radiological attacks and 
attacks on Members and staff as well as ordinary crime. To accomplish 
this mission, the Department will continue to work diligently to 
enhance its intelligence capabilities and provide a professional 21st 
Century workforce capable of performing a myriad of security and law 
enforcement duties, supported by state of the art technology to prevent 
and detect potential threats and effectively respond to and control 
incidents. With the help of Congress and the Capitol Police Board, the 
Department will continue developing professional administrative 
capabilities based on sound business and best practices, while raising 
the caliber and capability of its sworn and civilian personnel.
    The United States Capitol Police must maintain the ability to be 
prepared for any situation and the attainment of that goal depends, in 
part, on having the right people, the right strength and the right 
numbers, organized into an effective and flexible blend of capabilities 
and skills. The Department continues to prepare and train officers by 
holding Department-wide intelligence briefings when significant or 
critical information is gathered; disseminating intelligence and 
tactical information in daily roll-calls and conducting field and 
table-top exercises in efforts to enable our officers to have the tools 
necessary to do their jobs. Additionally, the Department's officials 
routinely participate in a wide-range of tabletop exercises with top 
experts in federal, state and local law enforcement.
    As Acting Chief of the Capitol Police, I take great pride in the 
many years of service this Department has provided to the Congress. 
Building on that legacy, we at the USCP look forward to continuing to 
safeguard the Congress, staff, and visitors to the Capitol Complex 
during these challenging times. In addition, we look forward to working 
with the Congress and particularly this Committee.
    I thank you for the opportunity to appear here today and am ready 
to address any questions you may have.

              ACCOLADE FOR U.S. CAPITOL POLICE DEPARTMENT

    Senator Allard. Did you give your full statement, Mr. 
Livingood?
    Mr. Livingood. It's been submitted for the record, sir.
    Senator Allard. I would just like to say like so many 
Members, I visit the Capitol at all hours. It might be in the 
middle of the night or 6:30 in the morning. But I have always 
felt like security was working well and always felt like I was 
treated in a courteous and helpful manner, and we appreciate 
that. I think on behalf of all of the Members, I would just 
like to thank you.
    Acting Chief McGaffin Thank you, sir.

               EXPLANATION OF FISCAL YEAR 2007 INCREASES

    Senator Allard. Now, the Capitol Police Board is requesting 
close to an increase of 20 percent over the current year. If 
you look at the reprogramming of funds last year, it's closer 
to 15 percent. Could you explain why the board believes we need 
to have an increase of this magnitude?
    Acting Chief McGaffin. Thank you, sir. As you noted, 
approximately $10 million of our request that's being expended 
in this fiscal year in fact came from no year or supplemental 
funding. So, it does reduce, in one measurement, the overall 
request, as you pointed out, and I thank you for recognizing 
that. I would say that there are two major drivers for the 
increase. Under the FTE increase, as you noted earlier, we're 
asking for 101 more FTEs in our sworn ranks, and we're asking 
for 7 additional FTEs in our civilian administrative ranks. 
These FTE increases on the sworn side are principally required 
in terms of supporting the Capitol Visitor Center, and that's 
what we see as a mission expansion for us in this coming fiscal 
year. The subcommittee has provided funding in fiscal year 2006 
for 45 positions to help us provide the adequate security for 
the CVC. We are also moving a number of security posts from 
Capitol division assignments into the CVC, which are no longer 
going to be necessary once the CVC is open. But we still have a 
shortfall of approximately 63 FTEs, which we're asking for in 
the fiscal year 2007 budget. In addition to that, we are asking 
for an increase of approximately 11 FTEs for our dignitary 
protection division, and these are the men and women who are 
assigned to protect the congressional leaders in the Senate and 
in the House. In the past year, they have been operating at a 
staffing level of about 82 percent, and that division alone has 
the highest per capita cost for overtime than any element 
within the police department. We have not dropped protection 
for these leaders at all, but it is being incurred at the 
expense of additional duty. So, we are asking for an increase 
there.

     LIBRARY OF CONGRESS ATTRITION AND OTHER NEW POSITION REQUESTS

    The Library of Congress attrition numbers that we have 
asked for over the last several years include an FTE increase 
of 10. And then finally, we are asking for an increase of 
approximately 17 FTEs to augment our counterterrorism 
initiatives as they repel and thwart any operational or 
planning initiatives which may be brought to this complex via 
the number one threat that we see vehicle-born improvised 
explosive devices. That group, which is referred to as a Tiger 
Team, is being managed exclusively out of overtime funds as 
well. Moving from the salary account, or staying within the 
salary account, sir, additional duty, the overtime requests 
have increased as well. And as I pointed out, the number of 
personnel that we have to apply to all the duties and 
responsibilities we have in this fiscal year we have to augment 
with additional duty. And as we schedule ahead, as we look 
ahead to requirements that are expanding, as well as holding 
steady into 2007, we see a need to increase our request for 
additional duty.

                         NONPERSONNEL INCREASES

    Systems maintenance and communication systems are the other 
area that are driving this budget up. And such areas that 
insist on this maintenance, such as our financial systems, our 
information technology systems, and our security systems are 
requiring some additional funding as well. Now having said 
that, we are working diligently with your staff to reduce this 
request for markup, and we have applied, with the help of the 
Government Accountability Office (GAO) and others, some 
strategies that we think will successfully reduce this request 
for fiscal year 2007. And I hope to come back to you, and 
expect to come back to you through your staff very soon with a 
lower request in several of the areas that we just identified.

  TIGER TEAM AND DIGNITARY PROTECTION DIVISION NEW POSITIONS DISCUSSED

    Senator Allard. I'd like to now follow up on the 28 new 
officers you have requested. As I understand it 11 of those FTE 
are for the dignitary protection detail, and the remaining 
would be the 17--for your Tiger Team. What is driving the 
increases in those two areas?
    Acting Chief McGaffin. Yes, sir. The dignitary protection 
division where we have asked for an increase of 11 is being 
driven principally by the amount of overtime that we have had 
to work to maintain security for 10 leaders of Congress.
    Senator Allard. Very good.
    Acting Chief McGaffin. Yes, sir, and the 17 that are 
assigned to the Tiger Team are the counterterrorist group that 
I have described that are positioned around the Capitol grounds 
at intersections who conduct random checks of vehicles 
traversing the grounds. This group is one that we are taking 
another look at because we have been funding that out of 
additional duty. And with cooperation with your staff, we are 
going to see if there is a cost benefit that can be achieved by 
reducing that 17 on the FTE side of the ledger and bringing 
some efficiencies where we can find additional duty to offset 
that as we have been doing up to this point.

                 REDUCTION IN POLICE OVERTIME EXPLAINED

    Senator Allard. Thank you. How have you managed your 
reduction in overtime? I remember in last year's budget we had 
set some caps on how much overtime you could pay. Are you 
confident we are not incurring any additional risks as a result 
of the reduction in overtime funds?
    Acting Chief McGaffin. Well, first, we are very grateful 
for the funding for additional duty and overtime the 
subcommittee has supported us with, and I can tell you that we 
are going to stay within our budget this fiscal year. One of 
the methods that we are employing right now to ensure that we 
stay within budget now and ideally confined a manner in which 
to lower our request for additional duty and overtime in the 
fiscal year 2007 budget request is the result of some great 
collaboration that we have entered into with the Government 
Accountability Office. Staff and support from that agency has 
assisted us in developing what we call a threat matrix. And 
just to quickly describe that, what we have been able to do 
with the help of the GAO is to apply criticality factors to 
every single post that we have, every single job that we 
perform up here. And those criticality factors are allowing us 
to identify where our critical needs are versus where our 
ideally positioned needs are.
    So, in other words, in assessing everything that we are 
doing, we're understanding what are the most important posts 
that have to be manned each day. Now, one of the byproducts of 
this review was that we have discovered some efficiencies that 
we have been able to achieve already where we found there were 
some posts that were being performed by two elements within the 
police department, which we were able to fold into one. And 
that kind of analysis is allowing us to stay within our budget 
this year, and it's the same analysis that's going to allow us 
to--I'm optimistic--successfully reduce our additional duty 
requests for next year.
    Senator Allard. Well, I want to compliment you on working 
with the GAO and helping to set some priorities there. I think 
that helps the Members to understand where they want to be as 
far as risk and what level of security they want to have.
    Acting Chief McGaffin. Thank you, sir.

               DISCUSSION ON COMP TIME BALANCE REDUCTION

    Senator Allard. On the comp time, what is the status of 
reducing comp time balances within the department such that no 
more than 240 hours will be carried over from one year to the 
next?
    Acting Chief McGaffin. We have conducted an audit of all 
exempt employees of the police department to determine how many 
have comp time balances in excess of 240 hours. Approximately 
62 of the 200 plus exempt employees of the department find 
themselves in that category. What we have done is to develop 
and administer an internal control system in which without 
interrupting any of the management oversight, without 
interrupting any of the supervisory responsibilities that these 
62 members would bring to the day-to-day job. All comp time 
balances will be reduced to the 240 mark by the end of this 
year, and there is absolutely no expectation on the part of any 
of us that we would carry more than 240 hours into the next 
leave calendar year.
    Senator Allard. Now, the carryover from one year to the 
next, is that manageable?
    Acting Chief McGaffin. I guarantee we are going to manage 
this down, yes, sir. And we have found ourselves in this 
situation for several different reasons, but the most pressing 
one is all the work that all of us have been performing over 
these last several years. And as we find opportunities to take 
time off and to enjoy some of the comp time, we are doing it. 
But the fact of the matter is that many managers, including 
myself, will never be able to use all the comp time that we 
have on the books, and that just goes with the job.
    Senator Allard. Goes with being a manager.
    Acting Chief McGaffin. Yes, sir.
    Senator Allard. I'm not a clock watcher either, and I 
understand. But we are going to get this issue resolved by what 
date do you anticipate, or what time line?
    Acting Chief McGaffin. It will be resolved within this 
leave calendar year. And if I am not mistaken, I believe by 
January 6, 2007, at the end of the last pay period in this 
leave calendar year, everyone's balance will be where it needs 
to be.

                   LIBRARY OF CONGRESS MERGE PROGRESS

    Senator Allard. Very good. Now, what is the status in 
detailing officers from the Capitol Police to the Library of 
Congress, and has progress been made in the last year in 
improving the police operation at the library?
    Acting Chief McGaffin. Mr. Chairman, we currently have 31 
Capitol Police officers assigned to the Library of Congress. 
That includes an inspector and most recently, two sergeants who 
have been assigned as part of that complement. As you know, 
within our budget request, we request authorization to fill 
vacancies that occur due to attrition in the Library of 
Congress, and that's what we are doing again this year. The 
role that our officers are providing to the Library is to 
augment their security, and I must say they have. The 
inspector, Tom Reynolds, has just done a magnificent job making 
the Library of Congress feel part of the Capitol Police and the 
Capitol Police feeling part of the Library of Congress. In the 
area of operations, we have run evacuation drills, we have run 
training programs for their managers, for their supervisors, 
such things as motorcycle training and patrol techniques. We 
have included the Library of Congress police department in our 
own department's award ceremony, and we are all working 
together. There are some bumps in the road, not to avoid those 
or not to think about those, but we are doing well.

               SCREENING VEHICLES AT LIBRARY OF CONGRESS

    Senator Allard. Well, one area that has been called to my 
attention is the screening of the vehicles going to the Library 
of Congress, and the information I'm getting is that this is 
not sufficiently thorough. Have you looked at this, and do you 
believe this is something that we ought to address?
    Acting Chief McGaffin. Yes, sir, we have looked at this, 
and we are right now examining the feasibility of bringing the 
Library of Congress delivery system--delivery requirements 
within our own offsite delivery center. Right now, we process 
somewhere in the area of about--on average, 80 trucks a day 
that come through the interim offsite delivery center, and the 
Library has requested to utilize that center for deliveries to 
its building complex as well. And we are making some 
recommendations to the Capitol Police Board, which will be 
reviewed and considered by that group to work toward ensuring 
that the security of the Library of Congress is just as great 
as this office building here.
    Senator Allard. Do you think you can get something to us in 
about 30 days or so on the cost estimate of the revised plan?
    Acting Chief McGaffin. Yes, sir.
    Senator Allard. We'd need that for our budget purposes. And 
so, if we can have the Board act and get back to us within that 
time period, we would appreciate it.
    Acting Chief McGaffin. Yes, sir.

               CAPITOL POLICE GENERAL COUNSEL DISCUSSION

    Senator Allard. In regard to the Capitol Police general 
counsel: Why do we need additional counsel, and why is the 
current general counsel on the payroll of the House of 
Representatives?
    Acting Chief McGaffin. There has been a remarkable increase 
in the work that counsel has had to perform. In the several 
years that I have been in an executive position, I have seen 
this work increase dramatically. I personally bring a lot of 
work to that office. We have assigned counsel to our Office of 
Professional Responsibility to assist us in the areas of 
discipline. We have assigned work to our Office of Employment 
Counsel regarding performance and performance evaluations of 
our own personnel. The workload simply has increased. Now, we 
are undertaking a review with the Capitol Police Board to 
determine where those positions need to be.
    Senator Allard. Now, is there any other position in the 
Capitol Police force that's not on the Capitol Police force, 
but on that of either the House or Senate?
    Acting Chief McGaffin. Not that I'm aware of, sir.
    Senator Allard. The answer's no?
    Acting Chief McGaffin. I don't believe there are any other 
positions, sir.
    Senator Allard. Okay. I see that Mr. Pickle is indicating 
that he doesn't believe there is any. So, this is an exception 
to what we ordinarily have before us.

             CHIEF ADMINISTRATIVE OFFICER RESPONSIBILITIES

    In 2000, legislation was enacted that created the Chief 
Administrative Officer for the Capitol Police in order to 
address long-standing administrative problems in the 
department. Then in 2002, the CAO issued a plan, as required by 
law, to carry out the Chief Administrative Officer's 
responsibilities. Now, while improvements have been made, the 
U.S. Capitol Police still does not have auditable financial 
statements or a comprehensive foundation for financial 
management according to the Government Accountability Office. 
And now, Mr. Stamilio, what are the most significant areas 
still to be addressed from the CAO Act, and the biggest 
challenges you face in meeting those requirements?
    [The information follows:]

    Since becoming an independent agency in fiscal year 2003, 
the Capitol Police has made significant strides in creating a 
solid foundation for financial management and becoming a fully 
functioning, best practices financial management operation We 
have, this fiscal year, implemented, on time and within budget, 
a full scale, predominately paperless, JFMIP compliant 
financial management system, report all financial transactions 
to the U.S. Treasury, have identified core competencies for all 
financial management staff and tied those competencies to 
individual development plans for all financial management 
staff. We have also finalized a total of 95 financial 
management policies and procedures as well as instituted a risk 
management plan and assessment tool for evaluating internal 
controls within financial management operations. Additionally, 
we have received reports on our internal controls from our 
external auditors, a practice that is highly encouraged but not 
required.
    We also manage travel, purchase and fleet card programs and 
maintain robust monitoring programs for the travel and purchase 
card programs to ensure proper use of the cards. In addition, 
we have implemented a paperless, on-line, just in time process 
for the ordering of office supplies to reduce costs by 
eliminating central storage and reducing inventory. We pay 
travel claims in an average of 4 days and have established and 
maintain standard contract formats, terms, conditions and 
clauses and as a practice. We prepare a semi annual statement 
of disbursements that reports all payment activity for all 
funds and recently redesigned our budget execution process to, 
for the first time, manage the budget in the manner in which it 
was formulated and ties the budget to the strategic planning 
process. This provides greater transparency to the operations 
of the Department as well as provides managers with more robust 
tools with which to manage operations and make decisions.
    We anticipate that with the implementation of the asset 
management system, the completion of a full set of audited 
financial statements, and the ongoing review of internal 
controls through implementation of our risk management plan, 
and the ongoing review and generation of policies and 
procedures, we will be nearly complete with our transition. 
While we currently do not produce a full set of federal 
financial statements, we do produce one of the statements, a 
Statement of Budgetary Resources, which is audited by an 
external audit firm and has received an unqualified opinion for 
all audits completed. We thank the Committee for your support 
of our initiatives to this point and look forward to reporting 
that we have reached our goal in the new future.

    Acting Chief McGaffin. I'll ask Tony to come forward. Mr. 
Chairman, I would like to point out, because he may be a little 
too modest to do this himself, some of the success that his 
office has achieved--you're absolutely right. In 2002, the 
Chief Administrative Officer plan called for a follow-up in 21 
areas of responsibility. This included 71 discreet actions that 
he was responsible for following up on. And of that, only seven 
remain open as we sit here today. And of those seven, we expect 
only three to remain open by the end of this fiscal year. I 
would suspect that Mr. Stamilio would talk to your subcommittee 
and your staff about some of the success he has had in 
implementing a financial management system or a new budget 
system, IT systems. And there's a performance system that we 
have in our police department now for executives and employees 
that is long overdue, and he and his staff have put together 
one of the most dynamic communications and evaluations systems 
that any law enforcement agency that I'm familiar with has. And 
these are all part of the plan that originated in 2002, and 
that has been rolled up into his own business plan and part of 
our strategic plan. So, there's great news in the work that he 
has brought to this endeavor.

                CHIEF ADMINISTRATIVE OFFICER ACTION PLAN

    Senator Allard. Well, I am particularly interested in the 
action plan.
    Acting Chief McGaffin. Yes, sir.
    Senator Allard. Tony.
    Mr. Stamilio. Thank you, Mr. Chairman. I appreciate the 
opportunity to respond. As Chief McGaffin pointed out, as did 
you, the legislation that provided for a Chief Administrative 
Officer and a plan--resulted actually in a plan that was built 
in 2001 and again revised in 2002. As we reviewed the specific 
actions required of that plan that was obviously initiated by 
the department, there are only seven major actions that are 
left, three of which I don't expect to be accomplished by the 
end of this fiscal year. Those three include the documenting of 
our policies and procedures. Now, this is a significant 
undertaking. If I could just put that piece in context for you 
because I think it's a significant challenge.
    First off, it's not that the department has not documented 
its policies and procedures because it certainly has and 
continues to do so. We have more work to do in this area. When 
we have built procedures to put in place the types of controls 
that we need to have and now we're in the business of 
documenting those and incorporating those into our general 
orders process. I anticipate that that will probably take 
somewhere between 3 and 6 months beyond the end of the fiscal 
year to a point that I could come back to you and say I feel 
like our body of documentation of our policies and procedures 
is sufficient and supports an operation. So, that's one area 
that remains and quite frankly, will continue as policy and 
procedure must continually be updated. But it's one that 
clearly has our focus. And with the support of GAO, we have got 
some increased focus in terms of the level of specificity 
required there. The second two areas that will not be 
accomplished by the end of this fiscal year include 
implementing the cost accounting system and complete financial 
statements.

           IMPLEMENTATION OF NEW FINANCIAL MANAGEMENT SYSTEM

    In both of those two initiatives, we made a conscious 
decision to delay work on those and instead pull forward, with 
obviously significant financial support from the Congress, the 
implementation of our financial management system. That's a 
very significant achievement because included in that system 
are many of the internal controls and the processes that we 
have been doing manually that are now part of the automated 
system. I'm proud to say that our Office of Financial 
Management and Office of Information Systems has put that in 
place inside a year under budget and that is our system of 
record and has been through the entire fiscal year. A companion 
to that system is something that is a work in progress, and 
that is the asset management system. Again, with the support of 
Congress, the finances are available. It was impossible from a 
management perspective to field both of those systems at the 
same time.
    And so, we offset the implementation of one with the other. 
The requirements of the asset management system are built. The 
policy and procedures have been drafted, and we are in the 
implementation stage of the asset management system at this 
point in time and anticipate that that will be operating 
probably by the end of this fiscal year at the latest, or at 
least phase one of that will be operating. With a solid 
financial management system and a solid asset management 
system, we will be in a much better posture to be prepared to 
do clean financial statements. And in fact, that is our goal. 
And so, the decision to delay was to posture us to be in a 
position to be able to do that.

     SUMMARY OF REMAINING CHIEF ADMINISTRATIVE OFFICER INITIATIVES

    Senator Allard. So, let me just summarize this. We have 11 
left.
    Mr. Stamilio. No sir, we have seven left.
    Senator Allard. Oh, seven left. And then, you're going to 
have four of those seven completed, you think, by the end of 
this fiscal year.
    Mr. Stamilio. Yes, sir. That's correct.
    Senator Allard. And then, the three remaining that you will 
have after this year will be documentation, then the cost 
accounting system, and then the asset management system.
    Mr. Stamilio. Right.
    Senator Allard. Now, those are really important aspects, 
probably the meat of the whole thing in those last three.
    Mr. Stamilio. The third being the financial statements, 
yes, sir.
    Senator Allard. I see.
    Mr. Stamilio. Now----
    Senator Allard. The asset management is in the cost 
accounting area?
    Mr. Stamilio. No, the asset management provides us the 
capability to value our fixed assets and----
    Senator Allard. Sure, that's in inventory.
    Mr. Stamilio [continuing]. Prepare a balance sheet that 
would withstand the scrutiny of an external audit. And so, that 
is a component that will put us in a position where we can have 
clean financial statements.
    Senator Allard. And when do you think you'll have all this 
in place for there not to be a problem with an external audit?
    Mr. Stamilio. Our target is to have clean financial 
statements at the end of fiscal year 2008.
    Senator Allard. Okay. So 2 years down the road is what 
you're looking at?
    Mr. Stamilio. Yes, sir. At this point.
    Senator Allard. Yes.
    Mr. Stamilio. And depending on our ability to fully 
implement and have confidence in the asset management system, 
we may be able to push that up, but I'm very confident that by 
the end of fiscal year 2008, we will have clean financial 
statements.
    Senator Allard. Well, obviously there needs to be 
functional systems and they need to be accurate. They are very 
important systems, particularly from an oversight standpoint.
    Mr. Stamilio. Yes, sir.
    [The information follows:]

    USCP advances in the Administrative Arena start in the area 
of Human Capital.
    First, the Performance Evaluation and Communication System 
(PECS) was implemented and training for it was completed. This 
is a competency-based personnel performance management system 
and is linked to Departmental goals and objectives in the 
Strategic Plan.
    Second, USCP's personnel information system modernization 
is well underway. Accomplishments include: AVUE Implementation: 
Phase I accomplished for the Data Accuracy/Integrity Project 
(Workbrain Organizational. alignment and Reporting), enhanced 
WorkBrain Reporting for Overtime; employee Self-Service 
implemented and a Customer Resource Center established.
    A third advance toward this Human Capital goal is in the 
area of training. We shifted focus of Entry-Level and In-
Service Training from traditional enforcement to Security 
Operations and Intelligence Training. Specifically, scenario-
based training has been implemented, a security screening 
certification program has been approved, and recruit officer 
curriculum review was completed.
    We have also gained ground on our Strategic Objective 
entitled ``Leveraging technology to improve productivity.'' The 
point of this objective is to provide responsive, high quality, 
cost-effective information technology services and solutions in 
a timely manner. Strategic Initiatives that support this 
objective include developing and maintaining an Enterprise 
Architecture to align business requirements and information 
technology investments across USCP, and modernize business 
systems, including transitioning to a target architecture 
comprised of interoperable systems and applications, provide 
browser-enabled access to all USCP applications, utilize 
Commercial Off-The-Shelf (COTS) technology to implement 
renovated applications and provide a phased approach to 
implementing target architecture.
    With regard to leveraging technology, the first step is to 
maintain and keep operational the installed Base of Information 
Technology (IT) Systems. This initiative encompasses the 
operation, maintenance and continued development of major 
systems critical to USCP operations: Computer Aided Dispatch, 
Time and Attendance, Records/Document Management Network 
Infrastructure, MAXIMO, Livescan Fingerprinting, Senate PERS, 
Radio Support Infrastructure, Microsoft Outlook (email), MS 
Windows 2000 Suite.
    We can report that all projects are on track and milestones 
are being achieved to support this initiative.
    A second step (in leveraging technology) is to complete the 
modernization of Administrative and Law Enforcement Programs.'' 
On this front, progress has been particularly strong for 
supporting Computer Aided Dispatch, Reports Processing and the 
Momentum Financial Management System (FMS).
    USCP has made progress to gain accreditation and 
certification of major systems in compliance with the Federal 
Information Security Management Act (FISMA). USCP annually 
assesses risk, certifies and accredits major systems, once 
every three years, using a third party vendor, and is audited 
annually as part of the financial audit--as well as 6 month 
reviews by the Government Accountability Office (GAO). USCP is 
in compliance with the Federal Information Security Management 
Act (FISMA). OIS identifies personnel with significant 
information system security roles and responsibilities, 
documents those roles and responsibilities, and provides 
appropriate information system security training before 
authorizing access to the system. During fiscal year 2005, 
various tools and techniques were used to monitor events on the 
information systems to detect attacks, and provide 
identification of unauthorized use of the system. Using a third 
party, USCP used appropriate vulnerability scanning tools and 
techniques to scan for vulnerabilities.
    A great deal of progress was made regarding Enterprise 
Architecture (EA). 95 percent of our systems are compliant with 
EA and this supports our strategic objective: ``To provide 
responsive, high quality, cost-effective information technology 
services and solutions in a timely manner.'' We completed (and 
submitted for GAO review) our EA plan (version 3). In addition, 
we drafted an EA version 4 with case management and asset 
management systems included. Finally, the Department aligned 
the IT Strategic Plan to the USCP Strategic Plan using the 
ProVision modeling tool.
    The Department developed and maintained an electronic 
document and records management system that is secure and 
quickly accessible (Hummingbird document management system). In 
addition, we developed and implemented a training plan for 625 
personnel on the ways of Hummingbird, record management policy, 
and records disposition.
    There have been several accomplishments as regards our 
strategic objective for Financial Management--to provide 
timely, reliable, and responsible financial management 
services, and ensure accountability for assets and resources.
    First, we have been able to formulate, submit and execute a 
USCP Budget, consistent with our strategic plan and 
congressional direction. As far as improving our budget 
execution, progress included: meeting with Bureaus/Offices 
throughout fiscal year 2005 to review spending plans; 
developing list of fiscal year 2005 unfunded items and 
identified savings sufficient to fund many of these items; and 
developing and submitting fiscal year 2006 spending plan to 
committees.
    USCP has responsibly managed the Department-wide 
acquisition processes and procedures in accordance with 
applicable principles of law and authorities. Specifically we 
have completed implementation of the purchase card program and 
initiated a fleet card pilot program.
    We have performed all planning and preparatory work 
necessary for the new financial management system, Momentum, to 
become operational on October 5, 2005. The Department also 
trained 95 percent of Momentum users and hired two new systems 
accountants.
    As regards Asset Management--accomplishments included the 
following: completed requirements definition of asset 
management project; completed on-site assessment of ``as-is'' 
asset management flows; identified definitive set of 629 user 
requirements; analyzing and evaluating asset management best 
practices to steer development of USCP's policies and 
procedures; analyzing business process reengineering for USCP's 
Property Management Program; analyzing ``to-be'' asset 
management flows; analyzing feasibility of a phased-in 
implementation approach; and updated Enterprise Architecture to 
reflect Asset Management.
    We have made significant progress on implementing programs 
to assure compliance with environmental, safety/OSHA 
regulations. For example, we have established Mishap Reporting 
Procedures and new data collection software for tracking and 
trending on-the-job injuries. Also we have developed a program 
to identify, document and correct workplace hazards. Of the 
more than 500 identified safety deficiencies by the Office of 
Compliance during the 108th Congress in USCP occupied spaces, 
100 percent of USCP action items were abated. Successfully 
abated over 350 safety deficiencies in USCP occupied spaces. We 
also successfully established a Safety Awareness Program.
    In other logistics areas we have improved warehouse 
inventory management, updated and revised internal standard 
operating procedures and improved our preventative maintenance 
system.

            DISCUSSION ON NEW POLICE CHIEF SELECTION STATUS

    Senator Allard. I would encourage you to keep on it and 
keep up the work. Now, Mr. Livingood, where are we in finding a 
new chief for the department, and what time frame do you think 
we are looking at for a hire there?
    Mr. Livingood. Mr. Chairman, the Capitol Police Board has 
requested the department to develop a concept for the search 
for a new Chief of Police. This concept is being developed as 
we speak to include use of a search firm, the selection 
criteria, and items such as that. Upon approval of the concept, 
a statement of work and deliverables, the process is estimated 
to be accomplished in approximately 3 to 4 months.

                   INSPECTOR GENERAL SELECTION STATUS

    Senator Allard. Very good. Now, what about the inspector 
general? That's another area where we have a search process in 
place.
    Mr. Livingood. Yes, sir. The search has been completed by 
the search firm, and the first interviews by the three 
inspector generals selected I understand has been completed or 
is in the process of being completed, and we, the Board, will 
start interviews, we think, within the next 2 weeks--2 to 3 
weeks.

                  MASTER TRAINING PLAN--CAPITOL POLICE

    Senator Allard. Now, I'd like to move to training. You 
talked somewhat in your comments, Chief McGaffin, about 
training. Do we have a master training plan for our Capitol 
Police?
    Acting Chief McGaffin. We have--the training services 
bureau, that's the group that is responsible for providing all 
the training for the police department, has developed a 2-year 
business plan that includes within it steps toward improving 
master training plans, schedules, initiatives associated with 
all the training within the police department.
    Senator Allard. So, it also includes organizational 
training policies as well as----
    Acting Chief McGaffin. Sir----
    Senator Allard [continuing]. On-the-street training, so to 
speak.
    Acting Chief McGaffin. It certainly does. It cuts all the 
way across--sworn civilian, recruit, in-service, and it is 
undergoing a review now with great emphasis and great energy 
being placed on improving it and ensuring that it meets every 
core competency that is being identified within all the 
positions and jobs we have in the department.
    Senator Allard. So, what do you see as the greatest 
challenge in updating this document?
    Acting Chief McGaffin. It is a challenge, and we are 
working toward meeting it.
    Senator Allard. What part of it is the greatest challenge?
    Acting Chief McGaffin. Oh, the greatest challenge? I'm 
sorry, Mr. Chairman. We have several. One is staffing. You 
know, to identify core competencies and the training 
requirements and the different positions we have is a 
challenge, but a greater one is to ensure that you have the 
right instructor staff and competencies within that instructor 
staff to deliver the training. And so, it's a balance. Within 
limited FTE staffing levels, we have got to pull men and women 
out of the line to put them into the training services bureau. 
So, we are looking at some strategies that would achieve 
efficiencies in those areas as well to include adjunct 
instructors who would be considered practitioners who would 
come off the line.
    For example, in our driver training program or our firearms 
program, when we would be running those courses, we would be 
bringing officers who are, in fact, drivers and who have been 
certified as instructors in that area to come in and conduct 
those classes. We also use our legal staff to come in and to 
conduct legal updates and constitutional law reviews for us. 
So, we are looking for efficiencies there as well, but that is 
a big challenge.

                            CLOSING REMARKS

    Senator Allard. I'd like to thank you, Chief McGaffin. This 
is sort of a last-minute responsibility you have had to incur. 
It's difficult to show up before this subcommittee, but we just 
want to thank you for stepping forward, and you have done a 
great job. Thank you for that. I also want to thank the whole 
Police Board for your effort.
                          CAPITOL GUIDE BOARD

STATEMENT OF HON. WILSON LIVINGOOD, CHAIRMAN, CAPITOL 
            POLICE BOARD AND CAPITOL GUIDE SERVICE
ACCOMPANIED BY:
        HON. WILLIAM H. PICKLE, SERGEANT AT ARMS
        HON. ALAN HANTMAN, ARCHITECT OF THE CAPITOL, FAIA
        TOM STEVENS, DIRECTOR OF VISITOR SERVICES

    Senator Allard. We'll now move on to the Capitol Guide 
Board. Mr. Livingood, you're the chairman, so you'll be our 
next panel. We're ready when you are.
    Mr. Livingood. Mr. Chairman, thank you for the opportunity 
for the Capitol Guide Board to appear before this subcommittee. 
I am pleased to come before you today to report on the 
operations of the Capitol Guide Service and the Congressional 
Special Services Office. With me today are Mr. William Pickle, 
the Senate Sergeant at Arms, and Mr. Alan Hantman, the 
Architect of the Capitol, who are members of the Capitol Guide 
Board, and Mr. Tom Stevens, Director of Visitor Services.

                            PRIMARY FUNCTION

    The primary function of the Capitol Guide Service is to 
provide an educational, accessible, and enjoyable visit to the 
United States Capitol for over 1 million visitors each year. 
The employees of the Capitol Guide Service and the 
Congressional Special Services Office provide a wide range of 
tour-related services to Member offices and public. We have 
had, as I said, over 1 million visitors this year, and that's 
on public tours, large group of Member's tours, congressional 
staff-led tours, and adaptive tours for visitors with 
disabilities.
    At the current level, we this year may well reach over 1.5 
million visitors to the Capitol before October 2006.
    As a quick background and I have submitted my full 
testimony for the record, but just as a quick background, the 
Capitol Guide Service has been in existence since 1876, and 
they initially employed three guides.
    And since then, as you know, the Guide Service and the role 
of the Guide Service has expanded--not only in terms of 
managing visitors to the Capitol, but in terms of added 
responsibilities. Following the events of September 11, the 
Capitol Guide Board called upon the Guide Service to assist the 
Capitol Police with emergency preparedness. Guide Service 
management is now equipped with emergency radios, providing a 
communications bridge to the Guide Service's own radio system. 
All Guide Service personnel have been trained in evacuation 
procedures. The Guide Service staff assists the Capitol Police 
in evacuation of all those tourists on public tours when 
needed.
    In addition to its daily responsibilities, the Guide 
Service and the CSSO help facilitate visitors through the 
Capitol during special events, such as the 2005 Presidential 
Inauguration, the lying in State for President Ronald Reagan 
and the lying in honor for Rosa Parks.

                             BUDGET REQUEST

    The fiscal year 2007 budget request for the Capitol Guide 
Service and the Congressional Services Office is $8,489,000. 
This request includes $4,450,000 for existing operations, which 
is an increase of $352,000 or 8.6 percent over the fiscal year 
2006 budget. Of that amount, 93 percent of this increase 
includes the COLA and increases in personnel benefits.
    The single largest increase in the fiscal year 2007 request 
includes an additional $4,039,000 to fund 71 additional FTEs 
and related equipment for operations in the new Capitol Visitor 
Center. The Guide Service and Congressional Special Services 
Office are currently funded for 72 employees, so this is in 
addition to that. The Architect of the Capitol has conducted a 
thorough study of the number and type of new positions 
necessary for tour operations in the new Capitol Visitor 
Center. The Guide Board's request for fiscal year 2007 funding 
reflects this need. In addition, the funding request includes 
the tour-related equipment necessary for beginning the 
transition to operations in the Capitol Visitor Center as soon 
as possible.
    As we begin to transition to the new Capitol Visitor 
Center, we welcome the opportunity to increase the duties and 
responsibilities of the Capitol Guide Service to meet the needs 
of the congressional community and the visiting public.
    In closing, the dedicated employees of the Capitol Guide 
Service and the Congressional Special Services Office do a 
tremendous, dedicated job in providing the maximum in visitor 
service to all who come here to the Capitol. Yet, none of this 
would be possible without the support of this subcommittee. 
Thank you for your ongoing support, and we'll be happy to 
answer any questions at this time.
    [The statement follows:]
                 Prepared Statement of Wilson Livingood
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity for the Capitol Guide Board to appear before the Committee. 
I am pleased to come before you today to report on the operations of 
the Capitol Guide Service and its Congressional Special Services 
Office. With me today are Mr. William H. Pickle, the Senate Sergeant at 
Arms and Mr. Alan Hantman, the Architect of the Capitol, who join me as 
Members of the Capitol Guide Board. Also with me today is Mr. Tom 
Stevens, Director of Visitor Service, who has the pleasure of 
overseeing the day to day operations of the Capitol Guide Service.
    The primary function of the Capitol Guide Service is to provide an 
enjoyable and accessible visit to the United States Capitol for over 
one million visitors annually. In fiscal year 2005 the Guide Service 
accommodated approximately 353,000 visitors on Public tours alone. 
Also, the Guide Service led approximately 96,000 visitors on Member 
Reserved Group tours, 19,000 on Congressional member tours (early-
morning tours) and 7,000 on Dome tours. The Guide Service also trained 
over 3,000 Congressional staff to give tours and regulated the flow of 
approximately 680,000 visitors on staff-led tours. Additionally, the 
Guide Service through its Congressional Special Services Office, 
provided over 850 hours of sign language interpreting services for 
Congressional business, accommodated more than 1,300 visitors on 
adaptive tours for visitors with disabilities and provided elevator 
escorts for more than 9,000 visitors. If current levels are an 
indicator, we may reach 1.5 million visitors to the Capitol before this 
October.
    The Capitol Guide Service has been in existence since 1876, 
employing three guides when it was established for the centennial 
celebration. The Capitol Guide Board--similar in composition to the 
Capitol Police Board (House and Senate Sergeants at Arms and Architect 
of the Capitol)--was established in 1970 to formalize the Guide Service 
as a professional entity within the Congress and to supervise and 
direct its operation.\1\ The authorizing legislation in 1970 called 
upon the Guide Service, which employed twenty-four guides at the time, 
to not only provide educational tours of the Capitol but also to 
``assist the Capitol Police by providing ushering and informational 
services, and other services not directly involving law enforcement, in 
connection with ceremonial occasions in the Capitol or on Capitol 
Grounds,'' among other duties.
---------------------------------------------------------------------------
    \1\ Effective January 3, 1971, Public Law 91-510 made the tour 
guides legislative employees under the jurisdiction of the Capitol 
Guide Board. The first free guided tour was conducted on January 3, 
1971.
---------------------------------------------------------------------------
    Since then, the role of the Guide Service has expanded to include 
additional responsibilities. Following the events of 9/11, we called 
upon the Guide Service to assist the Capitol Police with emergency 
preparedness. Guide Service management is now equipped with emergency 
radios, providing a communications bridge to the Guide Service's own 
radio system. All Guide Service personnel have been trained in 
evacuation procedures. It falls to the Guide Service staff to assist 
the Capitol Police in the evacuation of those on public tours, who for 
the most part, have never been inside the Capitol Building before.
    Today, we are budgeted for 72 Guide Service employees to perform 
these services. We welcome the opportunity to increase the duties of 
the Guide Service to meet the needs of the Congressional community as 
we transition to the Capitol Visitor Center.
    For fiscal year 2007, the Guide Service is requesting a total 
budget of $8,489,000. This request includes $4,450,000 for existing 
operations which is an increase of $352,000 or 8.6 percent over the 
fiscal year 2006 budget. Of that amount, $328,000 (93 percent) of this 
increase over fiscal year 2006 includes the estimated fiscal year 2007 
COLA and increases in personnel benefits. This part of the requested 
increase would enable the Guide Service to maintain the level of 
service currently being provided to Members of Congress and their 
guests based on current visitation volume and services provided. 
Secondly, this request includes $4,039,000 to fund 71 additional FTEs 
and related equipment to operate in the new Capitol Visitor Center.
    The staff of the Capitol Guide Service and its Congressional 
Special Services office has done a tremendous job in providing the 
utmost in visitor services to all who come to experience the Capitol. 
The accomplishments of this office would not be possible without the 
support of this Committee. We thank you for your support and the 
opportunity to present this testimony and answer your questions.

                     CAPITOL VISITOR CENTER OPENING

    Senator Allard. Well, thank you. I have four questions here 
I'd just like to cover with you this morning. The Guide Service 
and you are planning for the opening of the Capitol Visitor 
Center. Is this going to be a seamless operation as we move 
forward with the CVC operations?
    Mr. Livingood. Alan, do you want----
    Senator Allard. Mr. Hantman.
    Mr. Hantman. Mr. Chairman, good morning.
    Senator Allard. Good morning.
    Mr. Hantman. Tom Stevens has been meeting with our 
transition team, with our operations team regularly for the 
last couple of years; talking about the role of the Capitol 
Guide Service with respect to the operations of the visitor 
center itself. We fully expect that once we get the executive 
director on board and working together with this team, which 
needs to be enlarged, both on the executive director side as 
well as on the Guide Board side, that we will have a seamless 
operation. Clearly, the plan is for hiring, starting in 2007, 
for the Capitol Guide team, the additional 71 people that Zell 
has identified. And obviously, the new functions that the Guide 
Service will be accommodating; such as boarding buses, talking 
to people before they actually get off the buses, to come into 
the visitor center, greeting people once they come through the 
screening area, working in the orientation theater areas, 
bringing people into those theaters, out of the theaters to be 
broken up into smaller groups to tour the Capitol building 
itself. Inside the exhibition areas--all of these functions and 
the new information desks inside the visitor center as well, 
will be staffed by the new people identified for the Guide 
Service. It's a tremendous increase in the responsibility and 
scope. And with the ability now to welcome and educate people 
as they come to visit their Nation's Capitol, as we have not 
been able to do in the past, will be a wonderful new role, an 
expanded role for the Guide Service.

                         FULL-TIME EQUIVALENTS

    Senator Allard. Now, you've got 71 FTEs, and 24 of those 
are going to be full time, and you're planning on 37 that will 
be half time, or part time.
    Mr. Hantman. Tom.
    Mr. Stevens. It's 37 FTEs that actually split for 6-month 
positions, so it's actually 74 bodies, if you will, during the 
peak season.
    Senator Allard. Okay, and do you anticipate any 
difficulties in hiring these half-time employees?
    Mr. Stevens. Well, we don't at this point. Zell has 
volunteered their services to assist us in recruiting and 
advertising and actually hiring those folks.
    Senator Allard. Where are you anticipating the half-time 
employees would come from?
    Mr. Stevens. Well, what we see now are a number of college 
students, retirees, folks that go south for the winter, but are 
up here during the summer that enjoy the environment and come 
to work for us. And this is in addition to our volunteer 
staffing that we'll actually be beefing up.
    Senator Allard. Okay. Now, are you confident that the 
numbers of Guide Service employees requested for the CVC are 
sufficient?
    Mr. Stevens. I certainly believe for year one we will have 
sufficient staffing. Hopefully we will not have any kind of 
legislation that limits our maximum staffing levels. That is, 
we are budgeted for 143 FTEs, including the current staff. Some 
of those might be 9-month employees, some 6 month, and some 3 
month. It's obviously unrealistic to try to hire all those 
people and get them trained in a 1-month period. So, it'll be a 
ramping up just as the season ramps up for us and then slowly 
ramping down in the fall, as does the visitor season.

                 HIRING FOR THE CAPITOL VISITOR CENTER

    Senator Allard. Based on the oversight that we have been 
having on a monthly basis with the Capitol Visitor Center, 
testimony is indicating that May is when the CVC would open. 
When do you begin hiring for the CVC positions with a May 
opening date?
    Mr. Stevens. I think we have to anticipate somewhere very 
close to the first of the year, aggressively advertising and 
recruiting. Part of the challenge in training is finding 
adequate space. We do some training now, but our facilities are 
very limited. Maybe we can borrow some space to do some larger 
training classes of 50 or 60 at a time, but that's probably 
going to be the biggest challenge because much of what we do is 
very unique to our office. They aren't skills that people 
typically bring with them from previous employment. So, it does 
take several weeks to even give people a rudimentary knowledge 
of the building to where we are comfortable with them actually 
interacting with the visitors.

                        CERTIFICATE OF OCCUPANCY

    Senator Allard. Do we have to deal with a certificate of 
occupancy on the new Capitol Visitor Center where people are 
not allowed in until you get your final inspection? My point is 
we may have part of the Capitol Visitor Center available if we 
could get into it before final inspection for employee 
training.
    Mr. Hantman. We would expect, Mr. Chairman, that for 
training functions, some of the functions that Tom and the team 
will need to go through, that we'd be able to do that a period 
of weeks before a certificate of occupancy is issued for the 
central area. The training that would have to go on that would, 
say, use outside sample groups, if you will, to move through 
the center would probably be done more likely after a 
certificate of occupancy was obtained for general people to 
come in as opposed to employees.
    Senator Allard. Okay. That's all the questions I have. 
Again, I want to thank the panel for showing up this morning 
and testifying before this subcommittee.

                          SUBCOMMITTEE RECESS

    The subcommittee stands in recess until Wednesday, April 
26, at 10:30 a.m. when we will take testimony from the 
Government Accountability Office on its fiscal year 2007 budget 
request, as well as receive an update from the Architect of the 
Capitol and the GAO on the progress of the Capitol Visitor 
Center. Look forward to seeing you then. Thank you.
    [Whereupon, at 11:56 a.m., Wednesday, April 5, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, April 26.]

</pre></body></html>
